<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                        WEDNESDAY, JUNE 7, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:17 a.m. in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Shelby, Graham, Daines, Moran, 
Durbin, Leahy, Tester, Udall, Schatz, and Baldwin.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

                        Office of the Secretary

STATEMENT OF HON. ROBERT M. SPEER, ACTING SECRETARY


               opening statement of senator thad cochran


    Senator Cochran. Welcome everyone. We are prepared to 
proceed today. I have an opening statement, which I am just 
going to ask that it be printed in the record and have other 
Senators make any opening remarks they would care to at this 
time.
    The hearing is to review the request for funding of the 
Department. The Secretary of the Army, Robert Speer, is before 
the committee today. General Mark Milley, Army Chief of Staff, 
is also a part of this opening hearing of our committee. We 
appreciate very much your giving us information and 
observations about the general content of the Department of the 
Army's budget request.
    We also want to take the opportunity of thanking the 
distinguished witnesses we have in leadership positions that 
manage the United States Army, specifically the Office of the 
Secretary of the Army, the Honorable Robert Speer, and General 
Mark Milley, the Army Chief of Staff. These are the top people 
who are monitoring and leading and helping make sure we provide 
our resources to the Army to carry out our challenges for 
safety and security for our country. So it is quite a serious 
undertaking, and we appreciate the fact that you have agreed to 
serve in this capacity.
    And these are challenging times because we face budgetary 
constraints. So we have got our hands full in reviewing the 
proposal before the committee for the number of changes that 
are being suggested in the budgetary framework for the Army.
    These are going to receive considerable public attention 
and debate, as they should, over the next several months, and 
we look forward to working with you closely to be sure we 
understand what the needs are and how we can best make sure we 
carry out our responsibility for national security. We look 
forward to monitoring the activities of the committee to be 
sure we respond to the requests and in a responsible way how 
best to sustain and modernize our all-volunteer Army.
    Today the Army remains heavily engaged around the world. 
Soldiers are performing and our Nation owes them a debt of 
gratitude for their service.
    We look forward to everyone's testimony today, and your 
full statements will be printed in the record. And you can 
proceed to make any statement that will help us understand the 
budget request.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    The Committee will come to order. This hearing is to review the 
fiscal year 2018 budget request for the Department of the Army. Today 
we are pleased to welcome the Honorable Robert M. Speer, Acting 
Secretary of the Army, and General Mark A. Milley, Army Chief of Staff.
    We appreciate very much your appearing today to provide us with 
information and observations about the content of the Department of the 
Army's budget request. We also take the opportunity to thank our 
distinguished witnesses, the Acting Secretary of the Army and the Army 
Chief of Staff, for their service. We appreciate the fact you've agreed 
to serve in these capacities.
    These are challenging times because of budgetary constraints. The 
proposal before the Committee contains a number of significant changes 
and important budgetary issues for the Army. These will receive 
considerable attention and debate over the next few months.
    We look forward to working with you closely to be sure we 
understand what the needs are and how we can best carry out our 
responsibility for national security. We want the Committee to respond 
to the budget request in a responsible way on how to best sustain and 
modernize our All-Volunteer Army.
    Today, the Army remains heavily engaged around the world. Soldiers 
are performing remarkably well and our Nation owes them a debt of 
gratitude for their service.
    We look forward to your testimony. Your full statements will be 
included in the record.
    Now I will turn to the Vice Chairman Durbin, the distinguished 
Senator from Illinois, for his opening remarks.

    Senator Cochran. I am going to turn now to Vice Chairman 
Durbin, the distinguished Senator from Illinois, for his 
opening remarks.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Thanks, Mr. Chairman.
    Acting Secretary Speer and General Milley, thank you for 
joining us today. We are looking forward to your testimony.
    We had a chance to sit down together yesterday. I returned 
from a trip last week to the Korean Peninsula, had a chance to 
meet with General Brooks and many of our lead officers in the 
Army who are literally risking their lives with others for the 
safety and security of the Korean Peninsula. We know the threat 
that we face there.
    There is some uncertainty in my mind about the new 
Government of South Korea, but I hope they dispel that 
uncertainty soon when it comes to things like the THAAD 
(Thermal High Altitude Area Defense) missile defense deployment 
and that we can continue to work together to keep them safe in 
light of the obvious threat from North Korea.
    As we mentioned, there is also an area of the world where 
we are not only welcomed but they are anxious to see us and our 
presence. And that, of course, would be in Poland, the Baltics, 
and that region of the world.
    The European Reassurance Initiative, which began under 
President Obama in 2014, is critically important to stop the 
adventurism of Vladimir Putin and the Russians. Today it has 
taken on a different character because some have raised 
questions about the future of NATO (North Atlantic Treaty 
Organization). No question in my mind about the future of NATO. 
It is a critically important alliance not only for regional but 
for world peace. And I hope that we can reassert, if necessary, 
our commitment to NATO and its future.
    Finally, let me join the chairman in saying I am also 
concerned that the budget presented to Congress by the White 
House has no workable solution for sequestration. None. The 
budget proposes $500 billion in increases to defense over the 
next 10 years while dramatically reducing domestic programs by 
$1.5 trillion in the same period of time. This is not serious. 
This is not going to end sequestration. What it is going to do 
is to have us face another budget crisis before the end of this 
fiscal year. This is no way to manage a great nation and no way 
to make sure that our Department of Defense and other critical 
agencies that keep us safe in America have some certainty and 
predictability when it comes to budgeting.
    Mr. Chairman, this is another challenge for us. It has been 
an honor to work with you in the past, and I look forward to 
doing it in the future. And I also look forward to the 
testimony of our witnesses.
    And I turn it back to the chairman.
    Senator Cochran. Thank you, Senator.
    Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Mr. Chairman, I look forward to hearing the 
testimony.
    And I commend you for calling this hearing. This is a very 
important hearing and what we are going to learn today, I 
believe.
    Thank you.
    Senator Cochran. Thank you, Senator.
    The Senator from Vermont.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you, Mr. Chairman and Senator Durbin. 
It is good to have these hearings.
    And I do welcome General Milley and Acting Secretary Speer, 
and I appreciate the time we had yesterday to go over a number 
of these issues.
    We know the mission of the Army today is unique. I agree 
with what Senator Durbin has said about the threats we face and 
the necessity to maintain our commitments in NATO and around 
the world. We have to be ready at any moment to defend against 
the threats against our national security, including the 
extremism and the violence that undermine our core values.
    We are going to discuss today I know the shortfalls the 
Army is facing. But I think we should note the Army's successes 
in recent years in making better use of funding, moving toward 
efficient administration, better leveraging of the Guard, 
Reserve, rethinking acquisition programs and strategies. They 
are important steps but we still have only a third of the Army 
combat units ready to be deployed into battle. I know General 
Milley and Secretary Speer feel we must do better. I am 
committed to ensuring the Defense Department's budget enables 
it to respond to the missions it is asked to fulfill. But we 
also need to ensure that America has an economy and citizenry 
strong enough to fill the ranks and financially support our 
Army.
    Our focus here today is the Army's budget proposal, but I 
think as Senator Durbin and others have mentioned, we should 
not ignore the President's drastic and draconian cuts to 
domestic programs, programs that, if funded, would strengthen 
our economy and empower our people. You cannot simply ratchet 
up defense spending while undercutting education and law 
enforcement and housing assistance, victims' assistance, 
Medicaid, workforce training, and on and on.
    In fact, when Secretary Mattis was here in March, I asked 
him about the connection between a strong economy and a strong 
military. He has been quoted often on this, but I think it is 
worth saying again. He said the engine for national security 
has always been our economy. A strong economy equates to a 
strong military. And history is pretty compelling. Nations that 
did not keep their fiscal house in order, their economy strong 
lost their military power.
    Now, General, you are well known to this committee as a 
student of history, and I applaud you for that. I enjoyed 
talking about Norwich and other things with you. Acting 
Secretary Speer, you have significant experience with finance 
and economics. We know you will be testifying about the Army's 
budget and the Army's challenges, as you should, but be mindful 
of the country's national priorities outside the defense 
landscape. If we do not invest in Americans here at home, the 
Army is not going to have the men and women they need to serve.
    So thank you, Mr. Chairman. I will submit questions for the 
record.
    Senator Cochran. Okay. Thank you, Senator.
    We will now recognize our witnesses today: the Honorable 
Robert Speer, Acting Secretary of the Army, and General Mark A. 
Milley, Chief of Staff of the Army.
    Others will be recognized at other meetings of the 
committee. I will also have the record open for statements by 
other Senators. They will be printed in the record.
    So we will now recognize General Milley. I have got one 
question for you. How are you doing with recruiting and 
retention? That is to me one of the items that we want to hear 
from you about. You may proceed with your statement. Oh, the 
Secretary. I am sorry. I suppose I should recognize the 
Secretary first.

               SUMMARY STATEMENT OF HON. ROBERT M. SPEER

    Secretary Speer. Mr. Chairman, thank you. Mr. Chairman, 
Vice Chairman, and distinguished members of this committee, I 
speak to you on behalf of our soldiers, our civilians, 
families, and about the current state of America's Army.
    Your Army continues to march towards increased readiness 
while gaining momentum on modernization. Over the past year, 
the Army has been rebuilding readiness to counter the threats 
to the United States and our allies. I have witnessed readiness 
needs as I visit soldiers across our Army over the past 5 
months. The pace of the Army operations is as high as I have 
seen in the last 16 years. I have seen and heard the impacts of 
this OPTEMPO while watching training and learning from senior 
leaders and families and soldiers.
    However, our Army remains strong and our soldiers and 
families are resilient despite the strains. They understand the 
mission. They are well led and receive the best training of any 
Army in the world. What they desperately need is predictable, 
sustained resourcing to preserve readiness and maintain the 
gains they have already achieved while continuing to prepare 
for the uncertain future.
    I thank Congress for the fiscal year 2017 budget, a 
critical step to easing these impacts while rebuilding 
readiness. Your funding stopped the decline of the Army manning 
levels and ensured deploying units have increased funding for 
readiness improvements and enables us to begin modernizing 
aircraft, armored vehicles, and air missile defense systems. 
And it allowed increased investment in ammunition stocks and 
upgraded infrastructure and production line capacity in our 
organic industrial bases, a good first step ensuring we have 
the armaments we need today and into the future.
    Our $137.2 billion fiscal year 2018 base budget request 
sustains a 1,018,000-man total Army. This Army will be capable 
of meeting global obligations while we invest in the 
capabilities of wartime operations and future challenges. This 
budget builds on the fiscal year 2017 continuing readiness 
improvements. It begins the long-term modernization effort to 
improve long-range fires, missile defense, continues to 
replenish munitions stocks, and provide advanced protective 
systems for combat vehicles and aviation. It begins to fill 
shortfalls in theater sustainment and transportation 
capabilities, and it will sustain increased capacity in our 
armored brigade combat teams and aviation brigades, both in 
high demand around the globe.
    If we do not get this money we request, we will not be able 
to modernize the Army and we will continue to mortgage our 
future readiness. Above all, the Army needs sustained, 
sufficient, and predictable funding to restore the balance and 
reduce risk.
    The Budget Control Act and continuing resolutions cause 
uncertainty. They force us to make tradeoffs between 
prioritizing readiness versus the future investments. So when 
you raise the defense caps, it is far more cost effective for 
the Army to balance current operations and future modernization 
when they can rely upon predictable funding that extends beyond 
a single year's budget.
    We are also stewards of our funds and provide on behalf of 
the Nation. We are committed to Secretary Mattis' emphasis to 
rebuild and reform the processes to ensure resources are 
effectively and efficiently used.
    To this end, the Army will conduct a financial statement 
audit on September 30th of this year, and we remain audit-
ready.
    The Chief and I are also aggressively reforming our 
acquisition processes. We must deliver capabilities to the 
warfighter quickly and at a lower cost.
    I want to provide every soldier and family member the care 
and respect they deserve. The Army is making progress on 
eliminating sexual harassment, sexual assault, and retaliation 
and other offensive behaviors. This is a personal priority. We 
demand respect among our soldiers and civilians and will not 
tolerate such behavior among our formations.
    In addition, I am able to report that our continuing 
Soldier 2020 initiative of standards-based assignments 
regardless of gender is working.
    Our Army progress is directly related to your efforts. 
Thank you once more on behalf of our men and women of our Army. 
Your funding in fiscal year 2017 restored the balance of the 
total Army. We ask you to provide the resources in fiscal year 
2018 we request and provide budget predictability into the 
future. With your help, the Army will continue to build 
readiness and modernize to meet the challenges ahead. I thank 
you and look forward to your questions.
    [The statement follows:]
 Prepared Statement of Hon. Robert M. Speer and General Mark A. Milley
    We thank Congress for the fiscal year 2017 budget that allows us to 
improve readiness. With consistent, strategy-based funding over time, 
the Army can increase capacity, train contingency forces, close 
critical modernization gaps, and rebuild installation and training 
infrastructure--all while maintaining excellence in the execution of 
current operations. To that end, an increase in the budget caps and a 
defense budget sized to achieve the objectives in the Defense Planning 
Guidance are critical to the United States Army accomplishing assigned 
missions to a standard expected by the American people.
    Over the past 15 years of war, the Army has continuously provided 
trained and ready forces for combat operations in Iraq and Afghanistan 
to a standard of excellence equal to any in our Nation's history. 
Simultaneously, the United States Army has executed a wide array of 
combatant commander missions, providing forces to Europe, the Pacific, 
the Middle East, Africa, Latin America, and the homeland. Today, the 
United States Army assigns or allocates over 187,000 Soldiers to meet 
combatant commander requirements. However, the fiscal impacts of the 
Budget Control Act of 2011 and continuing resolutions have required the 
Army to take risk when meeting current operational requirements while 
maintaining a ready force for major combat operations.
                         strategic environment
    The United States Army forms the foundation of the integrated Joint 
Force facing several U.S. national security challenges. For almost two 
decades, the Army has provided the majority of U.S. forces fighting two 
prolonged counterinsurgencies in Iraq and Afghanistan. United States 
Army capabilities are key to deterring Russian, Chinese, Iranian, and 
North Korean challenges to U.S. national interests. Additionally, 
United States Army Soldiers defend the homeland against 
intercontinental ballistic missiles and provide support to civil 
authorities in the event of unforeseen natural and man-made disasters.
    Russia is likely to continue employing a mix of conventional and 
unconventional military capabilities to achieve its policy objectives. 
Russia's conventional capabilities are formidable and, in many areas, 
challenge ours and those of our allies and partners. The Army 
contributes 34,000 Soldiers in support of United States European 
Command's effort to deter acts of aggression and ensure America's 
safety and security. The forward presence of United States Soldiers is 
the keystone of our Nation's ability to assure North Atlantic Treaty 
Organization (NATO) Allies and non-NATO partners, deter adversaries, 
and act in a timely manner if deterrence fails. We must invest in 
strategically prepositioned equipment stocks in addition to rotational 
and permanently stationed forces on the ground in Europe today. The 
result of prepositioned stocks in conjunction with forward deployed and 
rotational forces increases assurances to our allies and deters 
potential enemies.
    The Army has about 71,000 Soldiers in the Indo-Asia Pacific to 
counter a myriad of security challenges from regional adversaries, 
violent extremist organizations, and natural disasters. In South Korea, 
the Army serves alongside our Republic of Korea counterparts to deter, 
and if necessary `Fight Tonight' against an increasingly dangerous 
North Korea. China's disputed territorial claims and assertive actions 
in the South and East China Seas increase tensions with many friends 
and allies. Additionally, ISIS-inspired attacks in Bangladesh, 
Indonesia, the Philippines, and bombings in Thailand in 2016, 
demonstrate the persistent terrorist threat in South and Southeast 
Asia. Specific Army investments that provide the Joint Force a more 
comprehensive rapid response force in the Pacific include: enhanced 
joint integrated air and missile defense, offensive and defensive 
counter- electronic warfare, and cyber capabilities. Additional 
investments support rotational forces to South Korea and a robust 
training and exercise program to increase interoperability and build 
partner capacity with our friends and allies.
    The Middle East and Central Asia are rife with threats and 
challenges. Iran's growing ballistic missile activities, cyber threats, 
and interference in Syria further threaten stability in the Middle East 
and the security of our allies. Russian intervention in Syria and 
increased influence throughout the region while ISIS continues a 
campaign of terror across the Middle East, adds to instability and 
inhibits long-term progress in the region. The Army's presence in the 
Middle East assures access, builds a foundation of trust, and prevents 
the ongoing conflicts from spilling over to other regions, including 
the homeland. Nearly 42,000 Soldiers throughout the area support the 
defeat of ISIS in Syria and Iraq, deny enemy safe havens in 
Afghanistan, deter Iran, support Turkey, assist with the stability of 
Jordan, and build partner capacity with our partners.
    United States Army and African partnerships promote regional 
stability and provide increased awareness and flexibility. United 
States Africa Command employs United States Army forces in small teams 
and units that train with African security forces, assist in building 
capable defense institutions, and support counter-extremist and other 
contingency operations. These efforts assist our African partners in 
their fight against violent extremist organizations--ISIS, al-Shabab, 
and Boko Haram. During fiscal year 2016 over 9,000 Soldiers deployed 
throughout Africa. These Soldiers participated in over 250 security 
cooperation events, exercises, and missions in more than 30 countries; 
highlighted by Central Accord 2016 in Gabon, where over 1,000 Soldiers 
participated with counterparts from 11 African nations as part of a 
peacekeeping training event.
    Approximately 4,000 Soldiers support military operations in Central 
America, South America, and the Caribbean. Transregional terrorist 
organizations, transnational organized crime, and violent extremist 
networks are the principal threat to regional security and stability. 
United States Army forces, including aviation, intelligence, 
communication, special operations, and logistics units, actively 
support partner nations' efforts to disrupt, degrade, and dismantle 
these threat networks operating in the region. In October 2016, in 
response to Hurricane Matthew and at the request of the U.S. Agency for 
International Development, the first Category 5 Atlantic hurricane 
since 2007, U.S. Southern Command stood up a Joint Task Force to 
support U.S. Government disaster relief operations in Haiti and 
Jamaica. U.S. Southern Command deployed United States Army air assets, 
including CH-47 Chinooks, UH-60 Black Hawk utility helicopters and HH-
60 Medical Evacuation helicopters, which provided the ability to 
quickly move heavy loads of humanitarian aid, conduct medical 
evacuation missions, transport key leaders around the area, and conduct 
early reconnaissance flights to identify the hardest hit areas. The 
efforts of these Soldiers assisted in the delivery of more than 349,000 
pounds of relief to areas devastated by Hurricane Matthew.
    At home and abroad, the United States Army secures, operates, and 
defends its networks and conducts cyber operations against a growing 
array of sophisticated cyber adversaries. The Army secures and operates 
its global enterprise network through four Theater Signal Commands and 
five Regional Cyber Centers. The Army has 41 Active Component Army 
Cyber Protection Teams that conduct cyber operations against near peer 
adversaries, ISIS, and other global cyber threats. We are building an 
additional 21 Reserve Component Cyber Protection Teams giving the Army 
62 Total Force Teams. These teams deliver effects against our 
adversaries in support of ground commanders, defend military networks, 
secure Army weapons platforms, and protect critical U.S. 
infrastructure. We request congressional support of our fiscal year 
2018 budget to continue to modernize our global enterprise network and 
advance defensive and offensive cyber capabilities to safeguard the 
Nation's security interests.
    In sum, over 187,000 Soldiers support combatant commander 
requirements worldwide. Our Soldiers directly contribute to our 
Nation's efforts to defeat ISIS, support governance in Afghanistan, and 
deter conflict throughout Europe, Asia, and the Middle East. This 
steady demand for trained and ready Army units provides our Nation with 
the ability to defeat adversaries, assure our partners, and deter 
potential aggressors.
                     impacts of fiscal uncertainty
    For the past 5 years, the Army has been working to build and 
sustain a ready force. However, this has been a significant challenge 
due to the Budget Control Act of 2011, Continuing Resolutions, and 
unforeseen changes in the strategic environment that include an 
assertive Russia, an increasingly threatening North Korea, and ISIS 
controlling territory across Iraq and Syria. To respond to the current 
strategic environment, the Army has chosen to prioritize readiness.
    While the Army remains focused on accomplishing the current 
missions of the combatant commanders, the negative impacts of the 
Budget Control Act of 2011 have been significant. These impacts include 
a smaller Army, spending less on modernization, and deferring 
installation maintenance. The consequences are real and will manifest 
themselves if the Army is required to fight in a major conflict. 
Congressional support for a Base Realignment and Closure authority 
would allow the Army to invest in readiness and modernization programs 
rather than excess infrastructure.
    Over the last 8 years, the Army reduced end strength by over 
100,000 Soldiers. This reduction included removing 17 brigade combat 
teams from the Army. To meet the end strength reduction targets, the 
Army reduced forward stationed forces in Europe and Korea, replacing 
them with rotational forces from the United States. The impact of this 
reliance on rotational forces is a deployment tempo that rivals the 
surge periods in Iraq and Afghanistan.
    Over the same 8-year period in which we reduced the Army by 100,000 
Soldiers, Continuing Resolutions and constrained funding under the 
Budget Control Act of 2011 forced us to pay short-term bills at the 
expense of long-term investments. A consequence of underfunding 
modernization for over a decade is an Army potentially outgunned, 
outranged, and outdated on a future battlefield with near-peer 
competitors. The Army's combat platforms include tanks, helicopters, 
infantry fighting vehicles, artillery, and short range air defense 
systems that are decades old. As technology continues to advance, our 
Army risks falling further and further behind. In short, the Army's 
lack of investment in modernization is eroding our competitive 
advantage in ground combat operations.
    Additionally, the Army deferred maintenance of our installations 
for many years. The Army generates readiness on the installations where 
Soldiers live, work, and train. Installations provide the platforms 
where the Army focuses on its fundamental task-- readiness. Our 
military construction investment remains at historically low spending 
levels and focuses on replacement of failing and obsolete training, 
operations, maintenance facilities, and footprint consolidation. 
Deterioration of our installations adversely impacts Soldier and Family 
quality of life, maintenance of equipment, deployment of forces, and 
our ability to mobilize reserve components.
    Overall, the Budget Control Act of 2011, Continuing Resolutions, 
and unforeseen changes in the strategic environment have forced the 
Army to prioritize readiness. The tradeoffs were a smaller Army, 
smaller investments in modernization, and deferring installation 
maintenance. The principal negative impacts of these tradeoffs have 
been stress on the force, eroded competitive advantage, and 
deteriorating installations. Immediately increasing the defense cap and 
predictably funding the Army as requested are the most important 
actions Congress can take to address the changing needs of the global 
security environment.
                       readiness to fight tonight
    Readiness deters and wins wars. An investment in readiness is time 
consuming and expensive, but the only thing more costly than funding 
readiness is the loss of life associated with sending Soldiers into 
battle unready. Ultimately, the United States Army must be prepared to 
respond to crises in sufficient numbers with sufficient training and 
equipment to fight and win with little-to-no notice. The National 
Defense Authorization Act for fiscal year 2017 end strength increase of 
28,000 Soldiers over the fiscal year 2017 President Budget's proposal 
is much appreciated to ensure the Army has fully manned formations. 
With a fully resourced end strength, the Army can sustain its global 
commitments. The fiscal year 2018 budget translates into better 
training, increased equipment, installation maintenance, additional 
munitions, and increased modernization that will improve the United 
States' ability to meet the requirements in the Defense Planning 
Guidance.
    In 2014, the United States Army began the transition from training 
for a decade-long counterinsurgency campaign to training for major 
combat operations. Over the next 2 years, the Army's challenge is to 
balance the requirements of remaining regionally engaged, while 
simultaneously preparing to meet the demands of a globally responsive 
contingency force. As a result, the Army increased resources provided 
to Combat Training Centers and home station training. Throughput at 
Army Combat Training Centers increased over 10 percent--an increase 
from 17 to 19 brigade combat team rotations annually. These rotations 
challenge unit commanders at the brigade and battalion-level with 
realistic training scenarios that integrate unmanned aerial vehicles, 
cyber, intelligence, electronic warfare, communication, fire support, 
and aviation assets.
    In addition to increased training opportunities, the Army initiated 
the Associated Units Pilot in order to build readiness and 
responsiveness across the Total Force. Under this program, the Army 
associates Army National Guard and Army Reserve units with a gaining 
Regular Army unit commander and vice versa--associates Regular Army 
units with gaining Army Reserve and Army National Guard commands. The 
receiving unit commander is responsible for approving the associated 
unit's training program, reviewing its readiness reports, and assessing 
its resource requirements. Associated units also train with their 
gaining units to the maximum extent feasible, including leader 
development, field training, command post exercises, and combat 
training center rotations. Congressional support for these efforts will 
increase Army readiness by shortening the post-mobilization training 
time required for combat and combat enabling units of the Army National 
Guard and the Army Reserve.
    An adequately manned and trained Army deserves the best available 
equipment when responding to crisis. Last year, the Army established 
the Rapid Capabilities Office to acquire equipment and services quickly 
and at less cost. Targeting the mid-term time horizon, the Rapid 
Capabilities Office works with select industry partners to address 
critical modernization gaps including assured positioning, navigation, 
and timing; counter-electronic warfare; automation; and cyber 
capabilities. The Rapid Capabilities Office is already providing 
electronic warfare capabilities to Army forces in Europe and, with 
Congressional support, will provide deployed Soldiers with next-
generation batteries and a supplemental positioning, navigation, and 
timing capability by 2020.
    Additionally, the Army must provide state-of-the-art equipment in 
sufficient quantities to the units responding to crisis. To respond to 
crises in a timely manner, the Army positions sets of military 
equipment around the world. These sets, Army Prepositioned Stocks, 
decrease deployment time because they place military equipment closer 
to the potential point of need. Army Prepositioned Stocks, in 
conjunction with strategic sealift and airlift, provide Joint Force 
commanders with faster access to needed combat formations and enablers 
in order to reassure our allies and, if necessary, defeat our 
adversaries. The accelerated growth of Army Prepositioned Stocks in 
Europe positions equipment for a division headquarters, two Armored 
Brigade Combat Teams, one Field Artillery Brigade, and division 
enablers for rapid access by the Joint Force Commander. Similarly, Army 
configured Prepositioned Stocks in Asia shortens the timelines 
associated with a contingency in the Pacific Command. With 
congressional support, increased investment in Army Prepositioned 
Stocks in Europe and Asia will underwrite the ability of national 
leaders to provide flexible options consistent with U.S. national 
interests.
    There is no greater responsibility in the Army than to lead 
American Soldiers in peace or war. Leader development is critical now 
and for our future. Professional military education combined with 
practical experience in leadership positions is the principal way the 
Army builds leaders. With Congressional support, the end product of 
increased investment in leader programs is officers and non-
commissioned officers (NCO) of competence and character, fit to lead 
men and women in combat.
                    modernization: equipped to fight
    Army modernization advances materiel solutions that enable the Army 
to retain our advantage against advanced adversaries and a broad range 
of other potential threats. The Army's fiscal year 2018 Budget Request 
prioritizes the requirements necessary to deter and, if required, 
defeat near-peer adversaries. The Army modernization priorities are: 
air and missile defense; long range fires; preferred munitions; 
mobility, lethality and protection of our Brigade Combat Teams; active 
protection; assured positioning, navigation and timing; electronic 
warfare; cyber; assured communications; and vertical lift. The Army 
also requests congressional support to improve our Soldier and combat 
service support equipment.
    The air defense and long range fires portfolios contain our most 
urgent and pressing capability need to respond to challenges we have 
not faced in decades. Our potential adversaries have substantial anti-
access and area denial capability, with many weapons and munitions 
whose quantity, range, and lethality have significantly improved. 
Specifically, we need to rapidly improve and procure our Army Tactical 
Missile System and Guided Multiple Launch Rocket System rockets, 
develop a cannon delivered area effects replacement munition, and 
improve the industrial base supporting the production of our precision 
and preferred munitions. To mitigate the increased risk to the maneuver 
force from airborne threats, such as rotary wing and fixed wing 
aircraft, Unmanned Aerial Systems, and cruise missiles, the Army is 
recapitalizing the existing Avenger systems and Stinger missiles, while 
developing the next generation of kinetic and non-kinetic short range 
air defense capabilities.
    The Army has developed a Combat Vehicle Modernization Strategy for 
our Abrams, Stryker, Bradley, Armored Multi-Purpose Vehicle, and 
Howitzer fleets. These programs are ready to go into production. Our 
request includes increased funding to reduce the currently programed 
30-year replacement timeline. It also includes funding to enhance the 
mobility and lethality of our light infantry units by providing them 
with both the ground mobility vehicle and the mobile protected 
firepower vehicle. All of our vehicles need to be protected against 
rocket propelled grenades and anti-tank missiles. However, quantities 
of armor protective technology are limited. The request includes 
funding for additional protective technology, which is currently 
available only in limited quantities. These active protection systems 
use sensors, radar, computer processing, fire control technology and 
interceptors to defeat incoming anti-tank missiles. This capability 
will save American lives.
    Similar to combat on physical battlefields, friendly and enemy 
forces fight for dominance in space, cyber, and the electromagnetic 
spectrum. The Army is developing anti-jam antennas that guard against 
attacks on our global position systems. Additionally, the Army is 
leveraging off-the-shelf hardware and software solutions to address 
shortfalls in offensive and defensive cyber capabilities. We are also 
developing the Multifunction Electronic Warfare system, to provide 
commanders the ability to plan, detect, defend, and attack in the 
electromagnetic spectrum. Vital to the success of our Soldiers on the 
battlefield, we are adapting our tactical radio waveforms to protect 
our communication network. Congressional support will enable the Army 
to increase capabilities and reduce risk in space, cyber, and the 
electromagnetic spectrum.
    Our communications network is critical to enable mission command of 
ground combat operations. We request support to accelerate fielding of 
mission command network systems and increase procurement of the Joint 
Battle Command Platform to decrease software vulnerabilities and 
increase interoperability. Congressional support of the request will 
enable the Army to increase capability and reduce risk.
    The Aviation portfolio adopts the recommendation of the National 
Commission of the Future of the Army to retain more Apache units, but 
cannot support aggressive modernization under the current Budget 
Control Act of 2011 caps. To implement the Commission's 
recommendations, the Army is incrementally procuring new Apache 
aircraft by slowing the modernization of the UH-60 Blackhawk program. 
This strategy extends the modernization timeline for Apaches from 
fiscal year 2026 to fiscal year 2028 and Blackhawks from fiscal year 
2028 to fiscal year 2030. We also need to pursue a rapid solution for 
aircraft survivability given the proliferation of anti-aircraft weapons 
on the battlefield. Additionally, we are expanding the production of 
the Hellfire missile to meet current demand while transitioning to the 
Joint Air-Ground Missile to prepare for possible future contingencies. 
The Army's fiscal year 2018 budget request includes funding increases 
in aviation munitions, survivability, and modernization.
    Our Soldiers remain the backbone of every Army capability, and our 
infantry units must be equipped with modern weapons. We request support 
to increase readiness by completing M4A1 Carbine pure-fleet fielding, 
developing Next Generation Squad Weapons, procuring anti-tank weapons, 
such as the Javelin and tube-launched, optically tracked, wire-guided 
(TOW) anti-tank guided missiles, and beginning procurement of the 
Lightweight Command Launch Unit for Javelin. Additionally, we seek 
congressional support for a variety of simulators and virtual training 
devices to significantly increase the repetition and experience base of 
our Soldiers and leaders at the tactical level in individual, 
collective, squad, and small unit operations given intense, complex, 
combat scenarios.
    Our ability to project and sustain combat power over long distances 
and for long durations is key to winning wars. We request support for 
shortfalls in bridging, tank transport, and tank recovery that limit 
the maneuverability of the Army's Main Battle Tank on the battlefield. 
We also seek to increase procurement of our Joint Light Tactical 
Vehicle and Heavy Equipment Transporter, modernize our watercraft, and 
upgrade our medical capabilities for combat casualty care. This 
includes procuring the Maneuver Support Vessel (Light), completing the 
Landing Craft Utility 2000 service-life extension, and completing the 
command, control, communications, computers, intelligence, 
surveillance, and reconnaissance upgrades. Congressional support is 
needed to enable these initiatives for Army and Joint Force mobility 
and sustainment.
         soldiers, civilians, and families: our greatest asset
    People join the Army to defend our Nation and its people. In turn, 
we must take great care to support those who step forward and answer 
the call to the colors. We request continued support for competitive 
pay and compensation and family programs, housing, and infrastructure 
improvements. We will continue Soldier 2020 initiatives' standards 
based assignments regardless of gender; Sexual Harassment Assault 
Response and Prevention (SHARP) initiatives to prevent and reduce 
harassment or assault against male or female Soldiers.
    Additionally, Army Civilians as part of the Army generating force, 
ensure the readiness and availability of our formations that support 
the Joint Force commander with more than 16,000 Army Civilians serving 
overseas supporting combatant commanders. We are committed to ensuring 
quality support to our Soldiers, Civilians, and their Families that 
strengthens the bonds within our Army team, while simultaneously 
advancing our efforts to increase readiness.
                       the army's budget request
    The Army's fiscal year 2018 base budget request is $137.2 billion, 
a 5.3 percent increase from our total fiscal year 2017 base request of 
$130.3 billion. The major budget goals for fiscal year 2018 are 
readiness to meet today's global challenges and focused modernization 
of our equipment. As part of these goals, the Army will upgrade 
aviation and ground combat platforms, while increasing investments in 
short range air defense, long range fires, aviation, network, combat 
vehicles, Soldier equipment, combat service support and installations.
    Additionally, we are accountable for the resources to produce the 
outcomes required. We are also committed to the efficient and effective 
use of those resources by improving and reforming our processes. As 
mandated by Congress in the 2010 and 2012 National Defense 
Authorization Acts, the Army will be audit ready by September 30, 2017. 
We are strengthening internal controls, developing standard business 
processes, retaining supporting documentation, and improving system 
controls. The Army will continue to implement corrective action plans 
to resolve deficiencies, with an overall goal of improving a culture of 
accountability and fiscal stewardship of our Nation's resources.
                               conclusion
    We thank Congress for the fiscal year 2017 budget and their 
continued support of the United States Army and the American Soldier. 
Now is the time to substantially increase readiness, improve 
modernization, and increase capacity. Readiness remains unequivocally 
our number one priority--it underpins everything the Army does. We have 
an opportunity to fix readiness losses and prepare for the future. 
However, building a professional Army takes time. To build readiness, 
Soldiers require specialized and sufficient training; modern, properly 
maintained equipment; sufficient quantities of the proper munitions; 
and stability. To sustain readiness, the Army requests congressional 
support for its modernization efforts--aviation, network, combat 
vehicles, long range fires and short range air defense, Soldier 
equipment, and combat service support. We request that Congress 
increase the caps in the Budget Control Act of 2011, provide sufficient 
funding to fully man and train our current formations and allow us to 
close critical gaps in modernization. These actions will ensure that 
our Soldiers are ready for the missions of today, as well as for the 
unforeseen conflicts of tomorrow.

    Senator Cochran. Thank you very much. Thank you for your 
statement and your leadership.
    We now call on General Mark Milley, Chief of Staff.
STATEMENT OF GENERAL MARK A. MILLEY, CHIEF OF STAFF
    General Milley. Thank you, Chairman. I very much appreciate 
the opportunity to testify today. And I want to thank you and 
Vice Chairman Leahy and Vice Chairman Durbin and all the 
distinguished members of the committee for the opportunity.
    For the past 16 years, the United States Army has 
continuously provided trained and ready forces in Afghanistan 
and Iraq while simultaneously executing a wide variety of 
missions in support of geographic commanders around the world. 
Roughly 50 percent of all demand from the combatant commanders 
on a steady state basis and 70 percent of unexpected emergent 
demand is met by Army forces.
    Right now, as previously noted, we have got, roughly 
speaking, 180,000 soldiers in about 140 countries around the 
world conducting training, deterring opponents, conducting 
humanitarian assistance, participating in peacekeeping, and of 
course, combat operations. The United States Army continues, 
despite the OPTEMPO, to be the best ground combat force in the 
world.
    However, the United States is increasingly being 
challenged, and the gaps in both capability and capacity have 
emerged. This Congress recognized that and took action by 
showing your support in the fiscal year 2017 supplemental which 
for the Army arrested a downward trend in readiness and 
capacity for us.
    And the Army is making progress. It is slow but it is 
steady progress in our core warfighting skills across the total 
force, the active, Reserve, and National Guard. We still have a 
lot of work to do to achieve full spectrum readiness and 
soldiers, and our objective is about 66 percent, or two-thirds, 
of the regular Army to be at full combat readiness.
    And the most significant help we can get from Congress is a 
steady, predictable funding line, raise the BCA top line, and 
stop using continuing resolutions from year to year. Adequate 
and predictable funding is absolutely vital to combat ISIS 
(''Islamic State of Iraq and Syria), fully recover our 
readiness, address capacity and capability shortfalls, and it 
is a critical first step to set the conditions for improving 
future readiness and modernization that will be needed for 
unforeseen contingencies.
    If the BCA and the continuing resolutions continue to 
define our resourcing, then we, the Army, risk reversing the 
readiness recovery that we started and has just begun. And it 
will result in a hollow Army. And we risk the lives of 
America's sons and daughters whose trust is in us, that we will 
provide them the best training, equipment, and leadership. A 
hollow force only puts the Army and the Nation's security at 
risk. Combat is very unforgiving, and it is even more 
unforgiving on armies that are not manned, trained, equipped, 
or well led. And the cumulative effect of persistent and 
destructive budget instability is increasing risk not only for 
the Army but for the Nation.
    Advances by our adversaries are very real. Their advances 
in capability, capacity, and their increasing willingness to 
use that military instrument of power in foreign affairs is 
clear. Russia's aggression in Eastern Europe, China's 
militarization of the South China Sea, North Korea's progress 
on developing an intercontinental ballistic missile with a 
nuclear weapon on it that can range the continental United 
States are but three examples.
    Readiness, capacity, and capability to deter or, if 
necessary, to fight and win wars is very expensive, and we know 
that. But the cost of preparation is always far less than the 
cost of sacrifice and the pain of regret.
    The current battlefield against terrorists is already very 
lethal, but a future battlefield against a near-peer or 
regional threat will be far more lethal. Our adversaries study 
us and they are rapidly leveraging technology, improving their 
capabilities, and are clearly asserting themselves in ways both 
seen and unseen.
    Time is not our ally. The increasingly frequent missile 
test provocations by North Korea should be a red flag storm 
warning indicator to everyone in this room.
    We request your support for this budget, which we recognize 
increases the defense caps imposed by the BCA. But we need this 
and we need it now before it is too late.
    Specifically, the Army requests congressional support for 
our readiness and modernization priorities. In readiness, we 
want to retain the end strength increases authorized in the 
fiscal year 2017 supplemental bill to fill the force structure, 
to fill the holes, if you will, and to combat levels of 
manning. We also want to continue investment in high quality 
home station and combat training center OPTEMPO and operations 
and maintenance to support that. We want to increase our 
aviation and ground maneuver capacity, replenish critical 
ammunition stocks, and continue supporting our efforts to 
maintain aging equipment.
    In modernization, we ask for your support for air and 
missile defense, long-range fires, preferred munitions, 
mobility and lethality improvements for our brigade combat 
teams, active protective systems for air and ground 
capabilities, assured mission command, electronic warfare, 
cyber, and vertical lift.
    We recognize that the American taxpayer entrusts us with a 
significant amount of money to meet those requirements, and we 
will be diligent stewards of our resources and we will enforce 
accountability to make effective use of every dollar. Your 
support for the fiscal year 2018 budget will ensure our 
soldiers are ready for the missions of today as we prepare for 
the unforeseen conflicts of tomorrow.
    And I thank you for the opportunity to testify and look 
forward to your questions.
    Senator Cochran. Thank you very much.
    The chair now recognizes the distinguished Senator from 
Illinois, Senator Durbin.
    Senator Durbin. Thanks, Mr. Chairman.
    Let me ask General Milley and Secretary Speer a general 
question. We learned this week that Canada has announced that 
it is going to increase its military force for the stated 
reason, the uncertainty of the United States leadership in the 
future.
    Last week, we heard the same from European leaders. They 
argued they had to fend for themselves more because of 
questions about the leadership of the United States when it 
comes to issues of national defense.
    I ran into the same thing in Korea with the new government 
on the THAAD missile defense deployment, something that I 
thought was agreed to over a period of 2 years is now going to 
be actively debated in the assembly of Korea, South Korea, to 
determine whether or not they will accept our expenditure of 
$923 million for a missile defense system. Again, they pointed 
to the uncertainty of the relationship with the United States, 
specifically statements by the President which leave questions 
in their mind about whether they have to assume some new 
financial burden for this missile defense system.

                 RELATIONSHIPS WITH TRADITIONAL ALLIES

    So my question to you is rather general, in light of the 
things that I have mentioned. Have you noticed in your 
bilateral relationships with traditional allies of the United 
States a change in their feeling about our role and our 
reliability?
    Secretary Speer. Mr. Senator, as far as the bilateral 
relationship dialogue and discussion, I have not been recently 
over to Korea, and I heard and was able to discuss with you 
yesterday--I have recently been to Poland and Germany just 
within the last 30 days and saw significant--I sat down with 
the defense minister of Poland and spoke with him. The 
relationship, working with our allies, was very strong. I saw 
them training together, and I saw significant lessons learned 
and ability to operate together.
    Senator Durbin. This was in Poland you say?
    Secretary Speer. Poland, as well as in Germany, with 
Ukrainians and other allies.
    We have got a longstanding relationship with Korea, as you 
know. We have got agreements and treaties working with such. I 
have not had the benefit of a dialogue with them. But I believe 
from an operational perspective from our foxhole, that the 
relationships and the operations are going well. The THAAD 
batteries are up and operational. The additional ones in terms 
of currently--my understanding has delayed a watch 
environmental review and will go through those things that is 
required to meet the needs of Korea.

                      THAAD MISSILE DEFENSE SYSTEM

    Senator Durbin. Well, I just might say in response to that 
this THAAD missile defense system for medium-range missiles 
seems so obvious to me for the people living in South Korea to 
protect them and to protect our forces who are there in their 
defense. I am troubled by the fact that it is now going to be 
resubmitted for political debate in the Republic of Korea as to 
whether or not they will accept our $923 million investment in 
missile defense for their country. I cannot follow their logic 
here. I would think if I lived in the Republic of Korea, I 
would want every missile defense system available to protect 
the people of the Republic of Korea, as well as the forces of 
the United States that are there in their defense.
    Let me ask General Milley for your response.
    General Milley. Briefly, I do interact with my 
counterparts, the chiefs of armies around the world on a 
routine basis. With respect to Canada or in many, many other 
countries, frankly, they do need to increase their forces. Many 
of their armies and not just armies but navies, air forces, 
marines, et cetera have atrophied over many, many years. And 
frankly, a lot of them do need to improve.
    So that to the side, though, I believe that with respect to 
Korea, the specific part of your question, the THAAD is 
essential to protect U.S. forces in Korea but also South Korea 
as a whole. And U.S. forces in Korea are there in order to 
protect the entire country. So we will work through that.
    As I understand the issue--it is only 24 or 36 hours old or 
something like that. As I understand it, it has to do with 
environmental concerns on the placement of the THAAD battery. I 
have not had an opportunity to talk to General Brooks, but I am 
confident he and his staff will work through that with the 
Government of South Korea.
    But I agree, the THAAD missile is essential to the 
protection of U.S. forces and civilians in the City of Seoul 
and all the assets we have there, and it is also critical to 
protect the entire country of South Korea.
    Senator Durbin. I also met--I hope I do not mispronounce 
his name--General Vandal.
    General Milley. General Vandal, Tom Vandal.
    Senator Durbin. I also met with him and asked him point 
blank, are we asking them to cut any corners on the 
environmental standards of Korean law when it comes to the 
placement of THAAD missile defense? He said, of course, not. 
And we know that it could take up to another year to go through 
that process.
    The point that was raised by the president was twofold. 
Environmental, and the second one what he called due process, 
namely that his assembly needed to debate whether or not to go 
forward with this missile defense system.
    So I am troubled by it. I would think that they would 
welcome not only our presence in their defense but also a 
missile defense battery which would protect our forces, as well 
as their people. And so it remains to be seen how this will 
play out, but I am watching it closely.
    General Milley. We have a Senate-ratified defense treaty 
with South Korea. We will work through that. And as you are 
fully aware, there has been recent change of administration in 
South Korea, and it would be entirely inappropriate for me or 
any of us----
    Senator Durbin. Understood.
    General Milley [continuing]. To comment on the internal 
deliberations of another country's government. So we will work 
through it. At the end of the day, I think the Republic of 
Korea will be properly supported by the United States.
    Senator Durbin. Thanks.
    Senator Cochran. Thank you, Senator.
    The distinguished Senator from Alabama is recognized.
    Senator Shelby. Thank you, Mr. Chairman.
    General Milley, you have testified before this committee 
before regarding the THAAD, the terminal high altitude area 
defense, and Patriot and how critical they are to our defense 
posture. I am just following up on some of Senator Durbin's 
questions.

                  IMPORTANCE OF OUR DEPLOYED MISSILES

    In view of the current pace of North Korean missile tests, 
could you provide, as much as you can in an open setting, the 
importance of our deployed missiles having a full magazine and 
how fielding a system there is so important not just to Koreans 
but to our troops too, as Senator Durbin alluded?
    General Milley. The ballistic missile defense system is a 
layered, tiered system, and THAAD, Patriot, but other systems, 
Navy Aegis and other systems, to include radars, et cetera, are 
all integrated into a comprehensive system that helps protect 
our allies and friends, Korea, Japan, but also U.S. assets in 
the Pacific and the continental United States. And THAAD and 
Patriot play a critical role in that.
    I believe that the system right now is a robust system. It 
has a high reliability, and I believe that one of the things we 
need to do, though--you mentioned full magazine. One of the 
things we need to do is put additional monies into the budget 
for additional munitions for those particular systems. And we 
have put that into this budget, and you will see one of the 
line items for increased THAAD, increased Patriot, and 
increased Patriot MSC, and increased long-range artillery, 
which is also key to take out their launchers and missiles----
    Senator Shelby. It would bring more fire power.
    General Milley. That is correct. Well, defensive and 
offensive.

                     CYBER RESEARCH AND DEVELOPMENT

    Senator Shelby. Mr. Secretary, in the area of cyber 
research and development, which we are all interested in, the 
Army has made significant investments in networks and other 
technology that connect our weapons systems and improve our 
capabilities. At the same time, these connections have created 
potential cyber and electronic warfare vulnerabilities, we 
know. Do you agree that protecting our missiles, sensors, and 
our command and control systems must be of highest priority for 
our research and development investments?
    Secretary Speer. Senator, I absolutely agree. It is a high 
priority. It is one of the top priorities we have. It is also, 
in terms of both across the total forces, making a tremendous 
commitment to it. We are building cyber protection teams. We 
have got a total of 61 we will be building--sorry--62. That is 
both in the active Guard and Reserve. We have got 33 of those 
fully operational currently. We are always continuing as the 
Army's executive agency in terms of training them, improving 
their capabilities. We have got a request in here of almost 
$1.5 billion added to their capabilities, to include improving 
the Cyber Center of Excellence down at Fort Gordon.

                             CYBER ATTACKS

    Senator Shelby. General, could you characterize, as much as 
you can in an unclassified setting like we have here, the 
importance of making sure that our weapons systems are able to 
perform when needed? In other words, you are defending them 
from cyber attacks.
    General Milley. In the world of cyber--a relatively new 
domain. So the domains of war, as we define it, are land, air, 
sea, space, and cyber. So it is a relatively new domain, say, 
in the last 20-25 years or so. And when cyber was first 
developed, it was not developed inherently with defensive 
mechanisms built into it and defensive protection systems. So 
we have recognized that. We recognize that the electromagnetic 
spectrum writ large, our communication systems, our 
positioning, our navigation, our timing, our GPS systems are 
vulnerable.
    Likewise, the adversary or the potential enemies are also 
vulnerable.
    So it is very, very critical that we invest in protection 
of the network and the various electromagnetic systems that 
depend on the network. And we are doing that. In this budget, 
you will see increased monies for cyber.
    The Army primarily invests in protection, defense, whereas 
other agencies of the government conduct the offensive piece.
    Senator Shelby. General, how important is fielding in the 
future directed energy lasers, hypersonic missiles, or 
providing other advanced capabilities to our soldiers? In other 
words, obviously we provide as an edge if not dominance.
    General Milley. Absolutely. There is a whole series of 
technologies out there, Senator, that are probably going to 
fundamentally change the character of war, not the nature of 
war necessarily. That will always be political, friction, fog. 
But the character of war does change for a wide variety of 
reasons. One of them is technology. So for 5 centuries, armies 
have depended upon powder propellants to project projectiles 
through the space. Now there is a possibility of alternative 
means, electromagnetic guns, laser, and other means of use out 
there.
    So we--we, the U.S. military, not just the Army--are 
developing and doing research and development, R&D, in those 
areas. The Navy, frankly, is probably the most advanced, along 
with the Air Force. The application for the ground use of laser 
requires significant energy sources like batteries. So, those 
have got to get miniaturized to a level where they are 
operational for ground use.
    I do anticipate, though, say within 10 years, maybe 15, a 
significant increase in the use of lasers, electromagnetic 
weapons, rail guns, and other things like robotics, artificial 
intelligence, et cetera, all of which is going to impact the 
character of war.

                          HYPERSONIC MISSILES

    Senator Shelby. In the area of--one quick question--
hypersonic missiles----
    General Milley. The same.
    Senator Shelby. We know that Russia and China continue to 
work in this area, and some of our soldiers have told us that 
they have expressed a real need for a faster missile than we 
currently have, a supersonic missile. And where are we there? 
Are we moving in the right direction?
    General Milley. We are moving. And we have monies in here 
and not only us, Army, but DOD writ large is progressing on the 
development of hypersonic munitions, not only missiles but 
bullets as well. So that is out there. It is embedded within 
the budget. It is a significant amount of money being devoted 
to that research and development.
    Senator Shelby. Mr. Secretary, do you want to add anything 
to that?
    Secretary Speer. No. I agree with the Chief on that. I will 
say it is still in an awful lot of research and development in 
terms of adding it. It is not mature, but it certainly is in 
terms of the future with cyber and other domains to include 
these capabilities that we need to continue investing in.
    Senator Shelby. Thank you, Mr. Chairman.
    Senator Cochran. The time of the Senator has expired.
    The chair recognizes the distinguished Senator from 
Wisconsin, Ms. Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman.

                      BADGER ARMY AMMUNITION PLANT

    Secretary Speer, I represent a State that is home to the 
former Badger Army Ammunition Plant. That plant was once the 
largest ammunition plant in the world. In 1977, it was put on 
standby status, and in 1997, the Army declared that it was 
surplus to its needs. It happened to be roughly coincidental 
with my election to the House of Representatives in a district 
that included the Badger Army Ammunition Plant.
    So over the last many years, I have been quite involved as 
we have seen much progress made in cleaning up much of the land 
and returning it to local control.
    It also is why I was quite alarmed by the Army's sudden 
reversal of previously approved plans to construct and operate 
a municipal drinking water system as part of its groundwater 
cleanup remedy. I am disappointed additionally in the Army's 
lack of transparency and public communication regarding this 
reversal. And I can tell you I am hearing from my constituents.
    I understand that the Army will now conduct a human health 
risk assessment before the Army moves forward with a new 
remediation plan. But this first step, this assessment, may 
take more than a year. And so I am urging you to expedite this 
process.
    But during this delay, I would like your commitment on two 
issues: first, that the Army will continue water testing and 
ensure the provision of clean drinking water to impacted homes 
near the site of the former Badger Army Ammunition Plant; and 
second, that the Army will communicate with local stakeholders 
and incorporate local concerns and preferred remedies into the 
ultimate Army remediation plan.
    Mr. Secretary, can you make those two commitments to me?
    Secretary Speer. You have my commitment to look into it and 
see, one, why it will take so long and speed it up and expedite 
it, so the first part, in terms of the timeframe, it will take. 
But you also have my commitment, as we are across now in terms 
of water, making sure that it is clean and that it is 
drinkable. I think we have made tremendous progress over the 
last 7-8 years in improvement both not only in terms of energy, 
but renewable energy, as well as water. But let me take a look 
at it and come back to you and follow back up where we are in 
timeframe and the commitment to ensuring we continue on doing 
so.
    [The information follows:]
                      badger army ammunition plant
    Baldwin understands ``that the Army will now conduct a Human Health 
Risk Assessment (HHRA) before the Army moves forward with a new 
remediation plan but this first step, this assessment (HHRA), may take 
more than a year and so I am urging the you (the Army) to expedite this 
process.''
    The Army will make every effort to expedite the Human Health Risk 
Assessment (HHRA). The HHRA is a component of a much larger 
investigation called the Remedial Investigation (RI) under the 
Comprehensive Environmental Response, Compensation, and Liability Act 
(CERCLA). Our goal is to have both the HHRA and the RI completed in 
less than a year. The contract scope for this effort is complete and 
procurement is underway. The Army plans to have the RI awarded by mid-
late August 2017. The draft RI will be shared with the Wisconsin 
Department of Natural Resources (WDNR) in early 2018 and finalized by 
mid-2018. The HHRA will evaluate whether contaminant concentrations in 
the plumes emanating from the former Badger Army Ammunition Plant 
(BAAP) exceed acceptable risk levels for lifetime exposure. The results 
of the HHRA are an integral part of the RI that will inform future 
decisions and determine the long-term path forward. While the CERCLA RI 
is underway, the Army will continue to monitor groundwater conditions 
so residents in the surrounding communities continue to have access to 
safe drinking water.
    During this delay (HHRA) Senator Baldwin would like the Army's 
commitment on two issues:
    That the Army will continue water testing and ensure the provision 
of clean drinking water to impacted homes near the site of the former 
Badger Army Ammunition Plant.
    While the Remedial Investigation (RI) is under development, the 
Army will continue testing residential drinking water wells and 
monitoring wells, ensuring the continued availability of safe drinking 
water. The Army is committed to being transparent in its handling of 
issues related to safe drinking water and maintaining an open dialogue 
with the community, regulators, and other stakeholders. The Army has 
sampled more than 250 private wells in the area around BAAP since the 
1990s. From this group, five (5) residential drinking water wells have 
been replaced by the Army due to groundwater concentrations exceeding 
Wisconsin drinking water standards. The last well replacements occurred 
in 2005. Under a plan coordinated with WDNR, the Army will continue to 
monitor groundwater conditions as necessary to protect residents in the 
surrounding communities from exposure to contaminants associated with 
past activities at the former BAAP. As appropriate, the Army will take 
steps to address drinking water concentrations if they are found to 
exceed the acceptable risk-based levels. Additionally, groundwater 
sampling results have been and will continue to be placed in the local 
information repository for residents' awareness.
    The Army will communicate with local stakeholders and incorporate 
local concerns and preferred remedies into the ultimate Army 
remediation plan.
    The Army will be presenting an update on cleanup activities for the 
former Badger Army Ammunition Plant (AAP) at a public meeting on 
Wednesday, July 26 from 6:00--7:45 p.m. at the Sauk City Library, 515 
Water St, Sauk City, WI 53583. This update is being provided to SEN 
Baldwin as part of the Army's commitment to transparency and open 
public communications regarding cleanup activities at the former Badger 
AAP. During this meeting, local stakeholders will have an opportunity 
to ask questions and receive updated information regarding the Army's 
progress in completing the CERCLA RI. Additional outreach to community 
stakeholders also may occur as necessary before and after this meeting. 
Opportunities for public participation and input have been, are 
currently, and going forward will remain available through the RAB. The 
Army remains committed to protecting residents from exposure to 
drinking water that contains unacceptable levels of contaminants 
attributed to the former BAAP now and in the future.

    Senator Baldwin. Well, I will look forward to hearing in 
more detail from you. Being able to rely that the water coming 
out of the tap is clean and safe is one of our most fundamental 
responsibilities.

                       TACTICAL WHEELED VEHICLES

    General Milley, I am concerned that the budget request 
appears to underfund the Army's modernization strategy for 
tactical wheeled vehicles. And I would like to discuss two 
specific examples of that.
    First, the request of only 37 FMTVs seems to undercut the 
Army's plan to provide stability to the industrial base as the 
service moves to the upgraded model of the vehicle in the 2020 
timeframe. In this case, the level will drastically reduce 
daily production rates and will result in nearly a 2-month 
break, placing suppliers also at great risk.
    So how does this funding strategy support Army 
modernization requirements and provide stability to the 
industrial base to react to urgent needs? That is my first.

                     HAMMETT AND PLS RECAP PROGRAM

    The second is that the budget request zeros out funding for 
both the Hammett and PLS Recap programs for fiscal year 2019 
through fiscal year 2022, despite known requirements across all 
three components.
    How is this consistent with the most recent National Guard 
and Reserve equipment report and the Army's decision to 
increase the contract ceiling for these programs?
    General Milley. Thanks, Senator.
    As you know, in any budgetary process, we cannot get 
everything that we want. So we have to make choices and we do 
that. And we chose to fund the joint light tactical vehicle. We 
are going to purchase several thousand of those based in this 
budget over time. And that is to give ground mobility to our 
lighter forces, the 82nd Airborne Division, the 101st, 10th 
Mountain, 25th, and so on. So that is point one.
    Point two is with respect to the Hammett and the PLS, et 
cetera, it was my assessment that it was an acceptable level of 
risk, given what we have in the inventory and what our host 
nation partners and allies have in the potential theaters of 
operation. I think those vehicles are primarily used to lift 
other--like tanks. They transport tanks over long distances. 
And I was willing to accept that risk in order to increase 
modernization on the tank itself, the Abrams, and the Bradley. 
And we have got some purchases of heavy armor as well.
    So it is a conscious effort. It is one that has to do with 
tradeoffs and risk analysis on my part and the Army staff's 
part and the Secretary's part. And I believe it is balanced, 
and I believe, although it is not optimal, it is an acceptable 
level of risk.
    Secretary Speer. Can I add to that also, Senator that we 
also have within the family of medium tactical vehicles--we 
look at the average age of the vehicles and those on hand. And 
the average age we try to keep under 15 years. They have a 
serviceable life of up to 20-25 years. We have maintained that. 
We do have, as you said, the renewed variant within this budget 
for that. There is $78.5 million total which includes 49 test 
pilot vehicles of a new variant also.
    Senator Cochran. The time of the Senator has expired.
    The distinguished Senator from South Carolina, Mr. Graham, 
is recognized.
    Senator Graham. Thank you, Mr. Chairman.
    Thank you both for being here today.
    If we go back in sequestration, what affect would it have 
on the Corps of Engineers, Mr. Speer?
    Secretary Speer. Well, across the board, it would have a 
disastrous effect. It is not just the Army Corps of Engineers.
    Senator Graham. The reason I mentioned that is that we are 
all wanting projects. Thanks for helping with the ports. But we 
all demand more but we give less. So if you really care about 
the Corps of Engineers, the last thing you want to do is go 
back into sequestration. Is that fair?
    Secretary Speer. That is correct. It is across the board.

                               SOFT POWER

    Senator Graham. General Mattis said before he was Secretary 
of Defense, General Milley, that if you cut the State 
Department's budget, you better buy me more ammo because soft 
power is basically important to the overall cause. Do you agree 
with that?
    General Milley. Absolutely. And may I elaborate?
    Senator Graham. Please.
    General Milley. The conduct of war is not just a military 
undertaking. Armies do not go to war. Nations go to war. And in 
terms of the forces and the capabilities, the skills that go to 
war, for the United States it is a whole-of-government 
interagency approach, and we have to use not only the military 
forces, but we need the State Department, the CIA, the FBI, 
Commerce, and so on and so forth. Those all participate in 
various capacities. So it is very important, I think, to have a 
whole-of-government approach to the conduct of war.
    Senator Graham. And therein lies the problem with this 
budget. I appreciate the increase in defense, but the cuts that 
Senator Durbin described are real and they will affect the 
ability to defend the Nation too.
    You said something I thought was very persuasive to me. The 
only thing more expensive than deterrence is actually fighting 
a war, and the only thing more expensive than fighting a war is 
fighting one and losing it.
    General Milley. Correct.
    Senator Graham. So, I sort of associate myself with your 
statement.

                      ARTICLE 5 OF THE NATO TREATY

    Do you support article 5 of the NATO treaty?
    General Milley. Absolutely. The Senate ratified the treaty 
for NATO and article 5 is embedded with that, and I fully 
support it.
    Senator Graham. The same for you, Mr. Speer?
    Secretary Speer. Absolutely.
    Senator Graham. From 2011, when sequestration first went 
into effect, very briefly--how is the threat matrix? Is it 
going down or up?
    General Milley. Up.
    Secretary Speer. Up.

              INCREASING OUR TROOP PRESENCE IN AFGHANISTAN

    Senator Graham. Let us look in the next decade in terms of 
big Army. Do you support increasing our troop presence in 
Afghanistan as an insurance policy against another 9/11?
    General Milley. I do. But as you know, the specific 
numbers, et cetera, are currently under consideration.
    Senator Graham. But the idea of more you support.
    General Milley. I do.
    Senator Graham. So we are going to have more troops in 
Afghanistan, at least I hope we will to make sure we do not 
have another 9/11.
    Secretary Speer. Senator, can I add to that, please?
    Senator Graham. Sure.
    Secretary Speer. I think that is part of discussions with 
the strategic readiness review that the Secretary is going 
underneath right now. You know, we cannot do everything 
throughout the world. I think part of that has to be part of 
that strategic readiness review in terms of the numbers and 
locations of the forces.
    Senator Graham. How big should the Army be in the next 
decade, General Milley?
    General Milley. Well, what I have said in the past--and I 
will stick to that right this second--which is my guess is 
somewhere for the regular Army in and around the 540-550 range. 
For the National Guard, I would like to see them in the 350-355 
range, and for the Reserve, somewhere around the 205 to 209 
range.
    Having said that, though, Secretary Mattis is leading right 
now a very rigorous and detailed strategic review. So the size 
of forces, capacities and its capabilities, is relative to----
    Senator Graham. But you expect it to be more than what we 
have today, which is 400,000 and some, 476,000. It needs to be 
more.
    General Milley. The regular at 476 on or about 1 October. 
Yes, I do.
    Senator Graham. Okay. That is fine. I am running out of 
time.
    So the point is we cannot be everywhere, but we better be 
in the right places. If we are not in Afghanistan, you are 
going to pay a heavy price because that place will fall apart. 
That is just my two cents' worth.
    When we take Raqqa--excuse me--Mosul back from ISIL 
(Islamic State of Iraq and the Levant), do you think we should 
leave a residual force this time around if the Iraqis want it?
    General Milley. If the Government of Iraq will consider 
that, yes.
    Senator Graham. Would you recommend to this Congress that 
we do that?
    General Milley. Yes, I do.
    Senator Graham. So that is more troops in Iraq.
    When it comes to North Korea, do we need more troops?
    General Milley. A very difficult question full of all kinds 
of nuances. So, I cannot give a yes or no.
    Senator Graham. Let us look at it this way. It is something 
we should consider as a Nation.
    General Milley. It is not so much more troops forward 
presence. It is the capability to respond.
    Senator Graham. Maybe strategic in-depth presence, maybe 
not in Korea but in the region.
    General Milley. Sure.
    Senator Graham. The bottom line I am trying to make is that 
in the next decade I can name 10 other places. I see the 
demands on the Army more, not less.
    General Milley. I agree.
    Senator Graham. And that is why sequestration is a 
disaster. That is why we need to build up our military, but you 
cannot do it by cutting everything else. So I hope we will find 
a way to fix this dilemma.
    General Milley. I agree.
    Senator Graham. Thank you both for your service.
    Senator Cochran. I thank the Senator for his contributions.
    Now, the next member is the distinguished Senator from 
Kansas, Mr. Moran.
    Senator Moran. Mr. Chairman, thank you very much.
    Mr. Secretary and General Milley, thank you for your 
presence today.
    I understand that the Army's unfunded requirements list 
includes a $3.1 billion increase--this is somewhat of a follow-
up to Senator Graham's questioning--in end strength beyond the 
fiscal year 2017 NDAA (National Defense Authorization Act) 
mandate.

             REBALANCING THE BRIGADE COMBAT TEAM STRUCTURE

    New threat environments in my view mean the need for 
potentially rebalancing the brigade combat team structure. Army 
planning to address Russian aggression includes back to back 
armored brigade combat team deployments to Europe. And in fact, 
we are sending 4,000 Big Red One soldiers with the 2nd armored 
BCT to Europe this fall.
    I want to hear a discussion about what you believe is the 
right mix between light attack armored and advice and assist 
brigade combat teams. Let us start there.
    General Milley. So in this budget, we have asked to flat 
line the end strength in the base budget. However, if more 
money became available and we could make sure that we were able 
to maintain the readiness, we do have in the UFR, as you 
pointed out, additional requests for $3.1 billion, which would 
increase the end strength capacity of the force.
    The mix of the force has long been debated and it depends 
on what you are doing at the moment in time. We shredded 
artillery, long-range fires, air defense artillery, and a lot 
of armored units in order to fight the current fight that we 
have been engaged in for this last 16 years.
    As the emerging environment becomes ever more clear, we now 
know that we probably need to rebalance the force with 
additional armor capability. So we have in this--we are going 
to ahead and add a 15th armored brigade and convert another 
infantry brigade to an armored brigade with a total of 16 
across the board.
    The SFABs that you talked about, the security force 
assistance brigades--we are going to introduce those. Our end 
state is five or six. We will see how the pilot program goes. 
And the intent there is that they will form the basis, the 
core, the nucleus of an advisory effort overseas because we 
think that we will be involved with other nations in some 
capacity to advise and assist and train and accompany them in 
the conduct of combat operations and/or training operations to 
build up their own internal capacity. So we are introducing 
those. And what that will do is that will recoup the brigades 
that we currently rip apart to provide the advisors that are 
currently overseas.
    So those brigades will increase the readiness of the force 
by not ripping apart existing brigades, provide a valuable 
service as advisors, and then if in the worst case, we had to 
rapidly expand the Army, those brigades would have coherent 
chains of command from staff sergeant on up that we could 
rapidly expand the Army by at least four or five brigades 
relatively quickly by adding soldiers to existing chains of 
command.
    So those are two of the things we are doing. There are some 
other minor force structure changes we are adding into the 
budget.
    Senator Moran. General, thank you for that information.
    I want to make certain that I bring up the topic of advise 
and assist BCTs and their training and particularly as it 
relates to Fort Riley.
    The availability of year-round space, usable acres ought to 
be a significant component of any decision process that is 
going on. And I just want your assurance that you will allow us 
to have a conversation with you in regard to Fort Riley and its 
capabilities in that regard.
    General Milley. Absolutely. We have settled on the first 
brigade to go to Benning, and that is also where we are setting 
up the security forces schoolhouse. So there will be training 
capacity there, and we are going to set up the first brigade at 
Fort Benning, Georgia.
    The follow-on brigades, though, have not yet been decided, 
and we have not done the analysis. And we will consider all the 
factors of all the various stations and installations around 
the country, to include Fort Riley, as part of that 
calculation. For sure, you and your office will be included in 
that discussion.
    Senator Moran. I appreciate that very much. Airspace is 
another component of that.
    I wanted to talk to you about cyber as well. I know that 
the Senator from Alabama has done so, but I would like to see 
some coordination between Reserve, Guard, and active, as well 
as the various branches of the service. And I will submit a 
question in writing.
    My time is down to 15 seconds, and I wanted to take the 
opportunity, first of all, to say I am pleased to see the 
administration nominated Ryan McCarthy. And my understanding is 
you have a history with him, and I am looking forward to that 
being a team that accomplishes a lot on behalf of our Nation.
    I also wanted to remind you, General Milley, that during 
the budget hearings, you and I agreed to go to Fort Riley 
together, and I would love that still to happen. And I would 
take this opportunity to say that tomorrow is the 100th 
anniversary of the 1st Infantry Division. It has a longtime 
history in defending our Nation. The Big Red One--we were at 
the monument yesterday near the White House, D-Day yesterday 
and Big Red One tomorrow. It is a historic time for the Army. 
But it is also a time for us to recollect, respect, and express 
our gratitude to those who give us the opportunity to have this 
conversation today.
    General Milley. Thanks, Senator. And I could not agree 
more. Big Red One is a great division. Fort Riley is a great 
post. And I will do better at coordinating my schedule with 
yours and get that trip on my calendar.
    Senator Moran. That is the way I explain those kind of 
questions when my wife asks me. I will do better. Thank you, 
General.
    [Laughter.]
    Senator Cochran. Thank you, Senator. Thank you very much.
    Now, the distinguished Senator from Hawaii is recognized, 
Mr. Schatz.
    Senator Schatz. Thank you, Mr. Chairman.
    General Milley and Secretary Speer, thank you very much for 
your service.

                            PACIFIC PATHWAYS

    I want to start, General Milley, with a question about 
Pacific Pathways. I hear nothing but good things about Pacific 
Pathways from soldiers when I am in the region about the impact 
that it has in terms of building alliances and the sort of 
outsized impact it has for each dollar spent. And so I wonder 
if you would not take a moment just talking about what you 
think Pathways does for the Department.
    General Milley. I think it is a very important series of 
exercises, as you know. And they serve to assure our allies and 
friends and partners in the region of continuing engagement. We 
think they deter any potential aggressive actions by potential 
adversaries. It serves to increase interoperability for the 
forces, and it provides tremendous training opportunities for 
our own soldiers and thereby increases the readiness of the 
force.
    Some exercises and some events overseas deployment, et 
cetera consume readiness. Pacific Pathways tends to increase 
readiness through cohesive, collective training throughout the 
Pacific AOR. So it is a very, very valuable series of exercises 
for the Army but also for our partners and allies.
    Senator Schatz. General, as you know, USARPAC (United 
States Army, Pacific) has paid for some of the shortfalls that 
are created by these exercises being a little more expensive 
than your normal exercises through O&M (Operations and 
Maintenance) funds. But I am wondering whether there is any new 
money in this budget request to make sure that USARPAC does not 
sort of have to take it out of hide, to know that it is a 
priority from the Department of the Army and not just something 
that USARPAC has to sort of live off the land in order to make 
it happen.
    General Milley. Thanks, Senator.
    No. We did not put a specific line item in here to increase 
specifically tagged to Pacific Pathways. There is we think, 
though, adequate O&M funding in there for the 25th Division, 
the units up in Alaska, and the units at Fort Lewis to 
participate in those exercises. I will dig into it. I will call 
out there and make sure that I understand that their needs are 
being met, and I will talk to Admiral Harris to make sure that 
his COCOM Commander's desires for Army forces and their levels 
of participation are being adequately resourced.
    [The information follows:]
                    pacific pathway exercise funding
    The fiscal year 20018 budget request includes an increase of United 
States Army, Pacific operations and maintenance funds for security 
cooperation and partnership activities, which includes Pacific Pathways 
directed funding and participation from Army units such as 25th 
Division's Brigade Combat Teams in Alaska and Fort Lewis.
    The Army will continue to allocate resources, in parallel with 
Combatant Commands, to support all Army Forces participation in 
exercises world-wide through its planning, programming and budgeting 
process.

    Senator Schatz. Great. Thank you.

                      LACK OF LEADERSHIP POSITIONS

    Moving on but sort of related to our presence in the Asia-
Pacific, it is sort of a follow-on to the question that Senator 
Graham asked about the State Department and all of the other 
executive branch agencies with which you work.
    I am worried in the extreme about the lack of leadership 
positions for which we have a nominee at all in the Defense 
Department, in the State Department. But I wanted to--without 
asking you to be critical of any processes or anything else, I 
would just like you to, if you would not mind, underscore the 
following point. I assume it is important to you, essential to 
you over the long run that we have an Under Secretary for 
Defense Policy and Assistant Secretary for Asian and Pacific 
Security Affairs, an Assistant Secretary for Political Military 
Affairs, an Assistant Secretary for East Asian and Pacific 
Affairs, and an Ambassador to Korea. I assume that you feel 
that this is all part of the team in the Pacific AOR, and we 
need to fill those positions as expeditiously as possible.
    General Milley. Sure, absolutely.
    Senator Schatz. Thank you.
    General Milley. But let me also say, only for the Army--I 
will not speak for DOD or Department of State or anything. But 
we have a professional group of dedicated civilians, SESs and 
GS grade that have stepped up to the plate and they are filling 
these executive positions, the assistant secretaries of the 
Army positions, as Mr. Speers, Acting Secretary of the Army. 
And I will tell you that they are tremendously professional. 
They are doing an outstanding job on a day-to-day basis and we 
are not missing a heartbeat.
    So as a broad statement, yes, I think the executive 
positions should all be nominated and filled as expeditiously 
as possible. But speaking in terms of a soldier about the Army 
staff, the civilian staff--they are doing an excellent job and 
we are not missing a heartbeat as far as I am concerned.
    Senator Schatz. And I think it is a good point. We have 
incredible career professionals who are stepping up and 
performing at a very high level.
    There is a structural problem, however, when you have 
people who are not Senate-confirmed and are not authorized to 
speak in the same way that a Senate-confirmed nominee would be 
on behalf of their country to another country. I mean, that is 
the reason you have Senate confirmation. That is the reason for 
these assistant secretaries and ambassadorships. And so you are 
right. Lots of people are stepping up and doing the very best 
they can and I think exceeding expectations. But some of these 
positions are by definition things that can only be done by a 
nominee who has been confirmed by the United States Senate.
    Thank you.
    Senator Cochran. The time of the Senator has expired.
    The distinguished Senator from New Mexico, Mr. Udall, is 
recognized.
    Senator Udall. Thank you, Chairman Cochran and Ranking 
Member Durbin.
    Acting Secretary Speer and General Milley, there has been a 
lot of discussion about readiness and the importance of 
readiness in this budget. After years of deployments, it is 
understandable that the services are looking to refocus their 
efforts on readiness. However, we really need to know what this 
entails and how the Army is utilizing this budget to prepare 
for the future.
    General Milley, you have stated that the Army is 
increasingly interested in developing machine learning and 
artificial intelligence capabilities. These are important 
aspects of the third offset, an effort which I very much 
support.

                            TROOP READINESS

    The other side of that coin is preparing our troops for a 
combat environment where cyber, space, and electronic warfare 
are hotly contested. How is the Army working to prepare for 
this type of future battlefield environment, and are there 
adequate funds in this year's budget to begin this type of 
training?
    General Milley. Let me try to answer it this way, Senator, 
and I appreciate the question.
    I think of readiness in terms of time in essentially three 
chunks of time. Basically, a FY DP or 5-year plan, POM, if you 
will. So from now until about 5 years from now, I would call 
that current readiness where the system is not going to make 
major fundamental changes, and you are going to have legacy 
systems, legacy equipment, legacy doctrines, and legacy 
organizations. You will change them a little bit but not 
fundamentally. And then you have got this 5- to 10-year period, 
which is a transition period, and then you got beyond 10 years.
    When you start talking about robotics, artificial 
intelligence, and many of these other technologies that I am 
referring to changing the character of war, we are talking a 
time period of, roughly speaking, probably between 5 and beyond 
10 years.
    Current readiness, which is the topic that people talk 
about all the time, which is the fight tonight sort of 
readiness--that is where most of the money goes to or that is 
what we have prioritized and biased, and we have slightly less 
going to modernization or future. And that is a problem. It has 
always been a problem. And for the last 16 years because we 
have been engaged in current combat operations, we have had to 
essentially mortgage our future in order to pay for the current 
war because we cannot send soldiers off into combat who are not 
properly manned--their units--not properly trained, not 
properly equipped, and so on, which is the components of 
readiness. So we have to always pay high attention and have as 
a priority current readiness, the fight tonight, the here and 
the now, and then we have to balance that against future 
readiness or modernization, as you described.
    But those systems, those technologies are a little bit 
further out for employment in ground forces. But it is crystal 
clear they are on the way. Some of them will advance faster 
than others, and they will result in some fundamental changes 
to how wars are fought.
    Secretary Speer. So, Senator, can I add to that? Because I 
think this is an important point also because that is where I 
feel over the last--since fiscal year 2013 with sequestration 
and with the BCA we have mortgaged that time period. We did not 
give to modernization, to the future. We did sustain science 
and technology, but we were not able to do the things we need 
to for the long term, sustain some of those things and commit 
to those. And I think that is why it was so important. We 
appreciate what we got in the 2017 budget. We need to continue 
on with the 2018 and beyond so we can continue to modernize for 
the future.
    Senator Udall. Thank you very much. I really appreciate it.
    Mr. Chairman, I have a couple of questions for the record, 
but I will submit those and stay within my time here. Thank 
you.
    Senator Cochran. Thank you, Senator.
    The Senator from Illinois.
    Senator Durbin. Nothing further.
    Senator Cochran. The Senator from Alabama.
    Senator Shelby. I have no other questions.
    Senator Cochran. We understand that a Senator is on his way 
to the hearing room to be heard and has time expiring. But we 
will await his arrival for a reasonable time.
    Secretary Speer. So, Senator, can I take this opportunity 
then? My time--I have got a total of almost 38 years in the 
military between time in service and time as now 7 and a half 
years as a political appointee. I am Senate-confirmed.
    I will tell you the professionalism of the Army, the 
soldiers that are in the Army is high quality. And as I walk 
out in the future, part of what I want to thank in front of 
this committee is my battle buddy right here, the Chief of 
Staff of the Army, who has got another couple years to go, 
maybe more. But it is professionalism of that and the oath to 
the Constitution that I find extremely important that you see 
the dedication those people have committed to.
    And so I want to thank this committee once again. It is a 
lot of money we ask for, but you have both of our commitments, 
while we are here, to make sure it goes to the readiness and 
for the future readiness of our Army to do those things that 
need to be done that you have tasked us to do and we will 
continue to do.
    Thank you.
    Senator Cochran. We are continuing our hearing of the 
Defense Appropriations Committee. And our distinguished friend 
from Montana, Mr. Daines, has joined us and he is recognized at 
this time. We thank you for your participation in our hearing.
    Senator Daines. Mr. Chairman, thank you very much.
    And, gentlemen, thank you for appearing before the 
committee this morning. The United States Army is one of our 
Nation's bedrock institutions. I am the son of a marine, but I 
am sure you will not hold that against me. You celebrated 242 
years of service next week.
    During that time, our soldiers have performed many 
honorable and distinguished feats, not the least of which is 
the discovery expedition into Montana, led by Captain 
Meriwether Lewis and Lieutenant William Clark. Today Montana is 
home to nearly 2,600 Army National Guard and 700 Army Reserve 
citizen soldiers who have carried our Nation's flag all over 
the world.
    As we consider the President's budget for fiscal year 2018, 
I am pleased to see the Army is making positive strides towards 
restoring combat readiness. The success of our troops on future 
battlefields will be shaped by investment decisions that we 
will make today.

                       ACTIVE PROTECTIVE SYSTEMS

    During his March testimony before this very committee, 
Secretary Mattis spoke about the need to maintain a 
conventional force able to take decisive action. For the Army, 
this means combined arms battalions able to withstand attacks 
from near-peer competitors. Given the proliferation of lethal 
anti-tank missiles, tank units across the country, such as the 
Charlie Company, the 163rd in Great Falls, Montana, require 
active protection in order to be decisively committed to 
hostile action.
    General Milley, what is the Army's plan to field protection 
against guided missiles across our conventional ground forces, 
to include some of our Guard units like the 163rd?
    General Milley. Thanks, Senator.
    And like your father, my father hit the beach at Iwo Jima 
with the 4th Marine Division, amongst many other islands, and 
Secretary Speer as well were marines. So we are very proud of 
our service and appreciate you mentioning that.
    With respect to active protective systems, it is a critical 
need. We are investing in that. Right now, there are only two 
countries whose industries produce complete systems. We, the 
United States, are working very, very fast to have the 
industrial base to produce some systems. So we have it out for 
contract right now. But what we are doing is working with one 
of these countries. One of them is friendly; one of them is not 
so friendly. So we are working with the friendly country right 
now to go ahead and acquire active protective systems, which we 
have. We are testing them right now to make sure that they fit 
onto our armored vehicles because they have to be modified for 
each of the type vehicles. And then we intend to field those to 
first responding units, and we will eventually field it 
throughout the force to the entire total Army, Guard, Reserve, 
and active.
    By that time, however, we think the U.S. industrial 
commercial solutions will be available. We will probably put 
out at that point for competitive bid when we expand it to the 
entire Army.
    But we are acquiring those. It is a very important 
capability. We want to make sure that our forces are adequately 
protected.
    Senator Daines. Thank you, General.

                             CYBER MISSION

    I want to shift gears and talk a bit about cyber for a 
moment. In just 6 years, the DOD has amassed a robust 
capability to effectively defend its networks against a variety 
of hostile cyber threats while also supporting our operations 
overseas. The Army is and has been taking a leading role in 
growing this capability through its Center of Excellence at 
Fort Gordon.
    It is fair to say, however, that the existing cyber mission 
force construct is just the beginning and really not the end. 
In fact, the Chief of the National Guard Bureau testified that 
cyber vulnerabilities exist in every State, which present 
appealing targets to our Nation's adversaries. It stands to 
reason that expanding defensive cyber capability within the 
National Guard would help address these threats and allow the 
active duty teams to focus on national threats and combatant 
commander requirements.
    General Milley, would you agree that our current cyber 
mission is shouldering a demanding load and that our force 
might be able to benefit from increased Guard augmentation?
    General Milley. There is no question. And your comment at 
the beginning about it is only a beginning that is very true. 
So we are fielding 61, 62 teams, cyber protection teams, 
throughout the total force. And there is no question that that 
is just the beginning of a growing capability not only in the 
Army, but the Navy, the Marines, the Air Force, and across 
CYBERCOM.
    The electromagnetic spectrum writ large--cyber is a subset 
of that--is a critical vulnerability to not only us but also 
our opponents. So the ability to protect that system is very, 
very important to the Nation's defense, to the defense of the 
various States, to the military forces' defense, et cetera. We 
take it seriously. The Department of Defense takes it 
seriously, and we are very actively and aggressively building 
those capabilities.
    Senator Daines. Thank you.
    Mr. Chairman, could I ask one more question?
    Senator Cochran. The Senator is recognized.
    Senator Daines. Thank you, Mr. Chairman, and I am over my 
time, but we are also out of Senators here. So maybe I can ask 
one more question.
    Senator Cochran. You are on home ground.

                      ADVANCED AVIATION TECHNOLOGY

    Senator Daines. All right. Thank you, Mr. Chairman.
    I will say I am pleased to see in the fiscal year 2018 
budget from the Army, it prioritizes research to increase our 
warfighting edge. At Montana State University--I am an alum--
investments in advanced aviation technology have yielded 
innovative ways to make aircraft lighter, to make it faster, 
and make it more efficient. In fact, we have these stretch 
broken composites which allow major structural components such 
as cargo floors in heavy lift helicopters made entirely of a 
composite material that can reduce the overall weight of 350 
pounds.
    Another example certainly is composite barrel technology 
that we are seeing just to lighten the load that our soldiers 
are carrying in the field. Oftentimes the loads they are 
carrying can exceed 100 pounds, and by lowering that weight, of 
course, we can increase mobility and reduce the chance of 
injuries as well.
    So kind of on two fronts--in fact, I carry now a composite 
barrel myself when I am in the field hunting. I like my 6.5 
Creedmoor that has got the composite barrel. It is lightweight, 
extremely accurate. It also diffuses heat and helps keep the 
target groupings there after the barrel warms up.
    So, General Milley, how is the Army leveraging this type of 
research to increase our mobility throughout some of the 
contested battlespace?
    General Milley. There is always a tradeoff in terms of 
weight, power, lethality, protection. And we are pretty much, 
more or less, at the engineering limits of steel and the 
various types of steel, rolled, homogeneous steel, et cetera. 
So there is--and we are trying to fund--active research and 
materiels in order to develop a material that gives you the 
equal amounts of protection at significantly lighter weights in 
order to increase mobility on a battlefield. That is for both 
vehicles and personal protection gear like the body armor 
plates and aviation vehicles, et cetera. So there is an active 
research and development.
    We have not found the Holy Grail yet, but I believe that 
through adequate amounts of money and research and development 
at the various places out there, to include in your State at 
the University of Montana, I think that we will, over the 
course of time, next several years, develop and discover new 
materials that will essentially give us the same properties and 
protection or maybe even enhance the protection that we have 
now at significantly lighter weights.
    Senator Daines. Thank you.
    General, thank you for your service and leadership to our 
country. It is a heartfelt gratitude. Thank you.
    General Milley. Thank you, sir.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. If there are no further statements to be 
submitted for the record, we want to extend our appreciation to 
the witnesses that we have had before the committee. We thank 
you for your assistance.
    We also will welcome any additional questions that Senators 
may submit in writing to our participants in the hearing.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Hon. Robert M. Speer
                Questions Submitted by Senator Roy Blunt
                fort leonard wood food services contract
    Question. Secretary Speer, I have repeatedly inquired about the 
status of a food services contract at Fort Leonard Wood (FLW).
    Two Missouri entities--EDP Enterprises, Inc. (EDP), a minority 
owned food services vendor from Kansas City, and the State of 
Missouri's Department of Social Services (DSS)--have worked together 
since 2000 to provide cafeteria and meal services at Fort Leonard Wood.
    For more than sixteen years this partnership has provided highly 
rated services to thousands of soldiers. There is now a conflict 
between those service providers and the Army.
    When the Fort Leonard Wood's food service contract came up for 
review and award in February 2016, EDP and DSS submitted their proposal 
in March 2016, hoping to continue their successful history of providing 
food services.
    However, it was determined that EDP's proposal was ``technically 
unacceptable'' and outside of ``the competitive range'' and thus would 
be excluded from any further consideration, which EDP appealed under 
litigation.
    Just within the last few weeks, a Federal judge granted a temporary 
injunction in favor of EDP and DSS that will likely lead the two 
parties to arbitration without risk that the contract will be awarded 
to another vendor.
    I am interested in seeing this situation resolved. I understand the 
difficulties in discussing the case due to litigation surrounding the 
issue, but I hope that this issue is resolved quickly.
    I would like a commitment from you that officials at the 
appropriate level will do an independent review of this situation and 
attempt to find a less combative resolution.
    In addition, I would like to know more about the following:
    The Missouri State Licensing Agency (SLA) has been performing the 
contract for at least the past 10 years. The Solicitation issued by 
U.S. Army Mission and Installation Contracting Command (MICC) stated: 
``The SLA has been performing satisfactorily for 10 years and therefore 
are a viable competitor.'' Why is MICC management supporting the 
decision to exclude the SLA, which is given priority in the procurement 
pursuant to the Randolph-Sheppard Act?
    Were the questions posed by MICC concerning the lines of 
communication between the SLA's team and the Army based on a documented 
lack of ability of the SLA to perform the requirements of the proposed 
contract or a lack of understanding of the SLA/blind vendor/contractor 
relationship pursuant to the Randolph-Sheppard Act?
    Did MICC place the incumbent SLA at a disadvantage because MICC 
significantly underestimated the headcounts at the facilities to be 
served; eliminated Excess Meal reimbursements entirely; and stated that 
the contractor would not be compensated no matter how much headcounts 
at a particular facility exceeded the estimated headcounts?
    Did MICC fail to provide the priority required by the Randolph-
Sheppard Act when it failed to recognize that the SLA proposed a 
trained staff currently performing the work for which its performance 
has been rated good to outstanding?
    What can be done to move this to a negotiation to resolve any 
outstanding concerns by procurement officials and to permit the current 
contractors to have an extended multi-year opportunity to serve?
    Answer. I have directed an independent review of this contract l to 
ensure that the solicitation process was performed in accordance with 
applicable laws and regulations. Answers to your specific follow on 
questions are below.
    Pursuant to the Randolph-Sheppard Act (RSA) the proposal submitted 
by a State Licensing Agency (SLA) is accorded a priority if the 
proposal is determined to be within the competitive range. The proposal 
submitted by the Missouri SLA was deficient in three of five major 
technical areas. Moreover, the price proposed by the Missouri SLA was 
approximately $40 million higher than the price proposed by the lowest 
price offeror submitting a fully satisfactory technical proposal. The 
proposal of the Missouri SLA was not found to be in the competitive 
range for award. EDP's successful performance under the prior contract 
is appreciated and valued by the Army. To be fair to all offerors and 
to obtain effective competition for the Army, each proposal for the 
follow-on award must be evaluated against the technical, price, and 
other evaluation factors set forth in the Army's request for proposals. 
Accordingly, deficiencies in the incumbent's current proposal are not 
overcome by a history of satisfactory performance. If that were the 
case, incumbents would have little incentive to submit a strong 
proposal and offer competitive pricing in order to obtain a follow-on 
award.
    To our knowledge there were no exchanges between the MICC and the 
Missouri SLA after receipt of proposals and before notification that 
its proposal was not within the competitive range. Since its proposal 
was not in the competitive range, there were no discussion questions.
    MICC did not place the incumbent at a disadvantage. All offerors, 
including incumbents, were required to prepare a proposal based upon 
the content of the agency solicitation and follow all bidding 
instructions in regards to the agency's stated requirement. The 
information provided in the solicitation represents the agency's best 
estimate of its future needs based on current and historical analysis. 
The balance of the facts regarding this issue are in controversy and 
litigation and cannot be discussed.
    As noted in response to question 1, above, the RSA priority is 
accorded when the proposal submitted by the SLA is determined to be 
within the competitive range. The reason the SLA's proposal was not 
afforded the RSA priority was because its proposal was determined not 
to be in the competitive range for award. The MICC could not legally 
give the SLA credit for information that it failed to insert in its 
proposal. The objective evaluation of the SLA's proposal determined it 
to be deficient in three of five major technical areas. Further, the 
Missouri SLA proposed a price that was approximately $40 million higher 
than the price proposed by the offeror which was selected for award.
    The Missouri SLA has exercised its right to contest the decision of 
the Army and has been awarded a preliminary injunction by a Federal 
district court. The next step in the process for bringing resolution to 
any outstanding issues with EDP and DSS is arbitration. Arbitration is 
a form of alternative dispute resolution that will provide an 
independent review.
              general leonard wood army community hospital
    Question. I just want to take a quick moment to thank you for the 
inclusion of $250 million in funding for phase 1 of the hospital 
replacement at Fort Leonard Wood.
    This project is absolutely critical to the Fort and surrounding 
community.
    The hospital last underwent a major renovation nearly 40 years ago.
    The hospital serves a large population, active duty, retirees, and 
families, with few alternatives military health system providers in the 
surrounding area.
    The project has repeatedly been deferred year after year so it is a 
positive development to see real funding included in the budget request 
this year.
    Do you want to add or discuss anything on the status of efforts to 
construct a new hospital at Fort Leonard Wood?
    Are there any readiness shortfalls associated with the current 
medical facility and if so, how are they being mitigated in the 
interim?
    Answer. The President's fiscal year 2018 budget requests $250 
million for phase one, inpatient services, of the Fort Leonard Wood 
Hospital Replacement. Phase two, primary care/outpatient services, 
current working estimate is $135 million and begins approximately 4 
years after start of phase one construction. Congressional support for 
the requested funds is necessary to maintain design and construction 
plans to best meet the healthcare needs of the Fort Leonard wood 
community. It may make sense to incrementally complete the Fort Leonard 
Wood Hospital as a single project. This approach provides an 
opportunity for the design and construction team to more fully 
integrate hospital and patient services.
    The General Leonard Wood Army Community Hospital (GLWACH) does not 
anticipate any readiness shortfalls to develop in terms of existing 
hospital capabilities or capacity before the new hospital is built. 
GLWACH continues to make necessary investments to ensure we can meet 
the medical readiness and general healthcare delivery needs of Fort 
Leonard Wood. The new hospital will relieve the challenges related to 
operating a 50+ year old infrastructure and afford the team the 
opportunity to expand services and gain efficiencies in operations.
                fort leonard wood basic combat training
    Question. As you are both well aware, earlier this year, the Army 
announced that its troop levels for fiscal year 2017 will increase 
28,000 soldiers across the total force.
    Consequently, to support the overall increase in end strength, the 
Army announced that Fort Leonard Wood's Basic Combat Training mission 
will increase by approximately 4,500 soldiers in fiscal year 2017.
    For the fiscal year 2018 budget proposal, end strength levels 
remain flat. However, the Army's unfunded requirement list requests 
17,000 more Soldiers; with 10,000 troops for the active Army; 4,000 for 
the Army National Guard; and 3,000 for the Army Reserve.
    I have consistently supported efforts, including efforts like the 
POSTURE Act lead by Senator Moran, to increase and fund, Army end 
strength levels, which will help address readiness issues and stabilize 
the problems that are making it difficult for our troops to accomplish 
their mission.
    Evident by the capacity Fort Leonard Wood has to handle the fiscal 
year 2017 increase, there is no reason that Fort Leonard Wood cannot, 
at a minimum, permanently handle the temporary increase in training in 
fiscal year 2017.
    Do you have any thoughts you would like to share about where you 
see Army end strength levels going and the necessity to rebuild end 
strength numbers for future missions?
    Does the Army have the necessary initial entry training capacity to 
facilitate end strength growth?
    Where are our best opportunities for investments at installations 
such as Fort Leonard Wood?
    How does the current budget invest in this area?
    Answer. Secretary Mattis is leading a rigorous and detailed 
strategic review of the Defense Planning Guidance and the National 
Military Strategy. Those reviews will provide direction for future 
required capabilities. The Army will evaluate our preparedness to meet 
the revised Defense Planning Guidance and National Military Strategy 
when those updated documents are provided.
    Question. Does the Army have the necessary initial entry training 
capacity to facilitate end strength growth?
    Answer. Yes. The Training and Doctrine Command (TRADOC) and the 
Army invested $40.1 million this fiscal year for additional training 
seats and leveraged existing structure/facilities to meet an increase 
of 6,000 personnel in the training mission in support of a 476,000 end 
strength. For example, TRADOC and the Army spent $4.9 million to 
upgrade 13 company barracks, 3 battalion headquarters and 2 dining 
facilities at Fort Leonard Wood to meet the increase in the training 
load.
    Question. Where are our best opportunities for investments at 
installations such as Fort Leonard Wood?
    Answer. The Training Barracks Upgrade Program (TBUP) and associated 
military construction projects at Basic Training/One Station Unit 
Training installations (Jackson, Sill, Benning and Leonard Wood) are 
programmed for fiscal year 2018 and fiscal year 2019. Accelerating 
these projects would be problematic due to a lack of swing space (e.g., 
some installations would need additional resources and time to 
construct temporary billeting in order to allow upgrades to occur).
    Question. How does the current budget invest in this area?
    Answer. The fiscal year 2018 President's budget request is for 
$619.6 million to fund Army Civilians, contractors, school houses, and 
base operations in support of Initial Military Training. The $619.6 
million includes an increase of $76.8 million over the fiscal year 2017 
President's budget ($542 million), including costs associated with the 
increase in end Strength.
                       active protection systems
    Question. I am concerned about Russian aggression in Eastern Europe 
and the proliferation of anti-armor weapons that could harm U.S. troops 
and equipment forward stationed abroad.
    I have been an advocate for our men and women who will serve to 
deter Russian aggression abroad and believe we must do everything we 
can to equip and protect them against any threat. I wrote a letter to 
the Army in 2016 urging adoption of APS (Active Protection Systems) and 
recently received a briefing from the Army on APS efforts.
    The President's fiscal year 2018 request contains $138.7M in OCO to 
procure non-developmental Active Protection Systems for Abrams. 
Additionally, the Army submitted an Unfunded Requirement for $254 
million for additional air and ground Active Protection Systems.
    The Army is on record that Active Protection Systems are a high 
priority.
    Proven, non-developmental, fielded combat solutions are available 
and I am particularly interested in how the Army intends to procure and 
field these systems starting in fiscal year 2018 and into the future.
    In the budget justification documents submitted with the 
President's request, the Army outlines plans to fund a ``Division sized 
prepositioned set of equipment in Europe'' using European Reassurance 
Initiative Funds. However, the Army only requests enough funding for a 
Brigade's worth of APS for Abrams in OCO, and not a Division.
    Does the Army intend to outfit additional brigades with APS in 
fiscal year 2018? If the Army is planning to have a division sized 
element in Europe, will some equipment not have APS?
    With funding in the fiscal year 2018 budget, what are the Army's 
plan to have APS under contract for procurement in the event of a 
Continuing Resolution in the First Quarter of fiscal year 2018 in order 
to ensure there is no delay in fielding this priority?
    The combat-proven, mature APS technology is ready now to ensure the 
protection of our troops abroad. We all agree we want to expeditiously 
procure and field APS to meet the Army's stated timelines.
    What contracting authorities/methods is the Army pursuing to 
procure APS? Is the Army considering using Other Transactional 
Authorities (OTAs) or existing contracts with APS providers to rapidly 
procure these systems?
    I understand the Army is intent on testing multiple APS systems, 
some more developmentally advanced than others, to quickly gather data.
    Is it the Army's intent to field multiple different systems if one 
commons solution can be found for all Army vehicles? Is there an 
advantage to finding a common non-developmental APS for Abrams, 
Bradley, and Stryker that is combat-proven and can be fielded quickly?
    Answer. The Army's fiscal year 2018 budget request would fund the 
Active Protection System (APS) for one brigade of Abrams tanks. Once 
procured, the APS will undergo characterization and platform 
integration, before being fielded in fiscal year 2020. Additionally, 
the Army plans to put APS on one Armored Brigade (BDE) Combat Team 
(ABCT) of Bradley, and one battalion of Strykers by the end fiscal year 
2020. The Army will take the lessons learned from the units with APS, 
and based upon successful demonstration of APS capabilities, the Army 
will seek to accelerate the Program of Record, Vehicle Protection Suite 
(VPS), to unprotected platforms in the future. This will leave the 
rotational ABCT's Abrams tanks and Bradley Fighting Vehicles, as well 
as 2CR's three Stryker Battalions in Europe without APS in the interim, 
but this is a necessary risk to ensure we get the right capability.
    If there is a Continuing Resolution in fiscal year 2018, it will 
introduce risk to the procurement of long-lead items, but the Army 
still believes it can meet the requirement to put APS on an ABCT by the 
end of fiscal year 2020. The Army does not plan to start APS 
procurement until second quarter of fiscal year 2018.
    As far as contracting authorities/methods are concerned, the Army 
is reviewing potential country to country program agreements, and is 
prepared to use Other Transaction Authorities and Production Memorandum 
of Understandings to support rapid procurement of APS kits.
    To address your last question, no, the Army does not intend to 
field multiple systems if one common solution can be found for all Army 
vehicles. The VPS program of record, once established, will maximize 
the use of a common APS across Army platforms. For the initial set of 
APS, however, the priority is to get the capability into our Soldiers' 
hands in Europe as quickly as possible. This does require the use of 
several different APS systems, because currently available APS are not 
one size fits all. Current APS systems fit and perform better on 
different platforms.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                         yakima training center
    Question. The Army manages multiple large training ranges in the 
western United States, including the Yakima Training Center in 
Washington State.
    Like much of the west, these ranges are regularly under the threat 
of wildfire.
    The Yakima Training Center can see tens of thousands of acres 
burned a year. The base has the responsibility to manage the threat and 
fight fires when they occur.
    While the Yakima Training Center will benefit from the fire house 
military construction project in the fiscal year 2018 President's 
Budget, the last few fire seasons have strained resources at the 
training center and in Washington State in general.
    With wildfire season upon us, do you have all of the necessary 
personnel and resources at the Yakima Training Center to successfully 
manage the fire season this year?
    Answer. Yes, an Integrated Wildland Fire Management Plan is in 
place at Yakima Training Center, along with the firefighting resources 
available through the National Interagency Fire Center in Boise, Idaho; 
and Mutual Aid Agreements at the State, regional, and local levels. An 
Army aviation unit provides on-site wildland firefighting capability at 
Yakima. In addition to the aerial capability, our organic Army 
firefighters carry the national credentials to work with and lead 
ground wildland firefighting efforts on Army ranges and installations.
                          iuid implementation
    Question. Secretary Speer, what is the justification for the steep 
cuts to the CH-47 Cargo Helicopter Mods (MYP) account in the Fiscal 
Year 2018 President's Budget Request (PBR)? The fiscal year 2017 PBR 
requested $189 million for this account in fiscal year 2018. The 
recently released Army budget only contains $20 million, for an 
approximate cut of $170 million. What modifications will no longer 
occur or be delayed by this budget action?
    Within this account, the CH-47 Program Office funds ``Aircraft 
Component Parts-Marking'' efforts. In recent years, Congress has shown 
increased interest in Item-Unique Identification (IUID) efforts to 
better track parts data, provide more supply chain management fidelity, 
and ensure that parts-marking efforts are better integrated within the 
Army. The Committee has been pleased by the efforts of the CH-47 
program office to adhere to the Army's and DoD's IUID policies and 
guidance. How does the CH-47 program office plan to continue their IUID 
implementation efforts under the proposed fiscal year 2018 budget cuts?
    In the fiscal year 2017 Defense Appropriations Bill, Congress gave 
the CH-47 Cargo Helicopter Mods (MYP) Line Item an increase of 
approximately $60 million over the requested amount from the Army. This 
action was partly taken to ensure increased implementation of IUID 
efforts across the Ch-47 program. Please describe how the CH-47 Program 
Office plans to utilize the increased appropriated funds to continue 
IUID implementation efforts.
    Answer. Of the approximate $170 million (M) cut to the CH-47 Cargo 
Helicopter Mods in the fiscal year 2018 President's Budget Review, $76 
million was converted to Research, Development, Test and Evaluation to 
support the CH-47 Block II Product Improvement account and $11 million 
went to the CH-47 Renew account to support the procurement of four MH-
47G aircraft. The remaining funding was used to support other Army 
priorities.
    Many of the modifications in the CH-47 Cargo Helicopter Mods 
account have been rolled up into the CH-47F Block II Product 
Improvement Program and will continue to be funded as part of that 
effort. Modification efforts supporting Cargo Platform Health 
Environment, Improved Vibration Control System, Adjustable Pitch Change 
Link and Engine Improvements continue at a slower rate for older CH-47F 
Multi-Year I aircraft. No modification programs have been eliminated. 
fiscal year 2018 CH-47 Cargo Helicopter Mods funding will be used to 
procure Improved Troop Seats and critical safety modifications. No 
fiscal year 2018 funding will be available for ``opportunistic'' Item-
Unique Identification (IUID) efforts.
    The CH-47 Cargo Helicopter Program Office continues to adhere to 
the Army's and the Department of Defense's IUID policies and guidance. 
IUID requirements are included in the office's design requirements, as 
applicable. All new aircraft, parts and components that are procured, 
are in compliance with IUID requirements as part of their particular 
procurement contract.
    The fiscal year 2017 National Defense Authorization Act did not 
appropriate the $60 million of additional funding for the CH-47 Cargo 
Helicopter Mods account that was requested as part of the Army's 
Request for Additional Appropriations (RAA). Given the proximity of 
submitting both the President's Budget (PB) 2017 and 2018 budgets, the 
PB 2018 request assumed the additional $60 million would be approved. 
These additional dollars were not approved. Therefore, CH-47 Cargo 
Helicopter Mods is executing the original PB 2017 request for $102.9 
million, of which $4.05 million is projected to support IUID efforts in 
fiscal year 2017.
                            stryker vehicles
    Question. I am very concerned that the Army did not request funding 
in fiscal year 2018 President's Budget Request for upgrading Stryker 
vehicles. If this decision is not reversed, the Stryker industrial base 
will start shutting down in fiscal year 2019, only two-thirds of the 
4th Stryker Brigade Combat Team will be upgraded to the Double-V Hull 
variant, and there will be a significant production gap for the next 
set of Stryker Lethality vehicles.
    What is the Army's plan to up-gun its remaining Stryker brigades 
with Stryker Lethality vehicles? Given world events, is there another 
brigade that has been identified to receive this Lethality upgrade?
    What would be the impact on the Army's modernization plan for the 
Stryker brigades if a decision is made to stop upgrades of Stryker 
vehicles with both the Double-V Hull known to save soldiers' lives and 
the latest engineering changes that provide more power, stability and 
off-road mobility?
    Answer. The Army has not requested fiscal year 2018 funding to 
upgrade any additional Strykers to the 30 millimeter configuration. As 
far as up-gunning the remaining Stryker brigades with Stryker 
Lethality, the Army is currently developing the requirement for the 
remaining eight Stryker Brigade Combat Teams (SBCT). While the Army 
will field the 2nd cavalry Regiment's (2CR) 30 millimeter Strykers in 
4th Quarter Fiscal Year 2018 (4QFY18), we have not determined if that 
is the best lethality solution for the rest of the fleet. A second 
brigade has not been identified for this form of lethality. Schedule, 
cost, and capability remain the priority for increased lethality in the 
SBCT. Lethality options will be presented to the Chief of Staff in 4th 
quarter fiscal year 2017. These options all include near-term lethality 
upgrades to another Stryker brigade, which will be determined by Army 
priorities.
    The Army has not made a decision to halt ECP 1 or the 4th (Double-V 
Hull) DVH brigade. A decision to stop the DVH ECP 1 would mean the 
current DVH fleet would lack the mobility and power of the Flat 
Bottomed Hull fleet. The DVH fleet would be less capable and would be 
at increased risk for future modifications due to the inability to 
receive more weight or provide for increased power demands.
    In terms of the overall program, the Army requested $97.6M for 
Stryker modification in fiscal year 2018 for Stryker training aids, 
devices and simulations, Stryker Lethality hardware, parts and various 
fleet-wide modifications including addressing Command, Control, 
Communications, Computers, Intelligence, Surveillance and 
Reconnaissance obsolescence. Additionally, the fiscal year 2018 
Unfunded Requirements list includes requests for funding for a 4th DVH 
brigade and a second set of up-gunned Strykers.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                             climate change
    Question. How concerned is the Army about the implications of 
climate change on our national security? With more people moving to the 
coasts, is the Army concerned that this could create new security 
dilemmas as the climate changes?
    Answer. The Army takes the national security implications of a 
changing climate very seriously. Changes in the climate can impact 
deployments and the conduct of operations due to adverse weather and 
the migration of population to coastal areas that are particularly 
susceptible to adverse weather. Our National Guard and Corps of 
Engineers are called on to respond to disasters and damage to critical 
infrastructure. Currently, nearly half of the cost of major 
construction projects in the Army's fiscal year 2016 military 
construction budget addresses risk and damage associated with a 
changing climate. The Army is doing its part to mitigate and adapt to 
the impacts of climate change. Through our ``Net Zero'' initiative, we 
have made significant progress toward the sustainability and the 
resiliency of our installations--communities in case of a natural 
disaster. The Army remains engaged with DoD and the other Services in 
evaluating the impact of a changing climate on national security.
                                 ______
                                 
             Questions Submitted to General Mark A. Milley
                Questions Submitted by Senator Roy Blunt
    non-developmental items and army tactical radio procurement and 
                                fielding
    Question. What is the Army's position regarding the procurement of 
non-developmental items (NDI) related to networked communications 
modernization?
    Does the Army agree that industry incentive to invest in 
independent research and development (IRAD) is often negatively 
impacted by sudden changes in Army requirements, especially after a 
significant amount of investment made by industry?
    How will the Army's new fiscal year 2018 tactical radio procurement 
plan impact the fielding of tactical radios to soldiers, compared to 
the fiscal year 2017 FYDP plan?
    The Army is currently engaging in a comprehensive review of its 
network, which could potentially result in additional changes to 
requirements and procurement strategies. When will the Army finalize 
and release any changes to this strategy?
    Answer. Non-Development Items help drive down cost and incentivize 
industry to compete its best product. Recent independent reviews and 
studies of the Army's tactical network strategy suggest that the Army 
should look at commercial products that are not constrained to 
government waveforms or communication software. The Army continues to 
review its acquisition strategy for opportunities to provide the best 
product to our Soldiers, at a competitive price, in a timely matter.
    The Army agrees industry's incentive to invest in internal research 
and development (IRAD) may be negatively impacted by sudden changes in 
Army requirements. The Army communicates regularly with industry 
partners and is fully aware of the concern industry has with 
requirements changes, especially after they have invested significant 
amounts of IRAD dollars.
    Fiscal year 2018 plan is to procure both Manpacks and 2-channel 
Leader Radios at a rate to equip two Brigade Combat Teams per year 
beginning in fiscal year 2019.
    The Army plans to release changes to the network strategy 
incrementally. The ongoing comprehensive network review includes the 
Warfighting, Business, Intelligence and Enterprise portions of the 
Network. The Army is currently reviewing the tactical portion of the 
Network. Any changes resulting from this review will be released 
following approval by the Secretary and Chief of Staff of the Army's.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                         credentialing program
    Question. Transition is an important part of a soldier's career, 
perhaps the most important because the transition stage shapes the 
soldier's re-entry into the civilian community. This process is better 
when a soldier transitions into a career position commensurate with 
their experience. Acquiring a license or credential while still in the 
Army is a good way to find one of these career positions.
    In March I met with the Sergeant Major of the Army and was 
impressed by his proposals to expand credentialing opportunities to 
more soldiers, especially those in specialties like combat arms where 
the private sector does not always see how those skills are still 
valuable.
    A recent report from Training and Doctrine Command found soldiers 
would be more likely to stay in the Army if provided the opportunity to 
acquire self-directed credentials. And credentialing more soldiers is 
almost certain to reduce unemployment compensation for ex-
servicemembers.
    What can the Army do now to improve access to self-directed 
credentialing for soldiers, and where do you need help from Congress?
    Answer. We recognize that credentialing promotes Soldiers' 
professionalism, competence, and readiness while in uniform, and 
prepares them for civilian careers post-Service. The Army COOL 
(Credentialing Opportunities On-Line) assists Soldiers in finding 
information on certifications and licenses. Army Soldiers may pursue 
credentialing opportunities related to, or independent of, their 
Military Occupational Specialty (MOS) training. COOL provides detailed 
information on: credentials related to an Army MOS, credential 
requirements and potential gaps between Army training and civilian 
credentialing requirements, and resources available to fill gaps 
between military training and civilian credentialing requirements.
    To encourage Soldiers to pursue credentials, promotion points are 
awarded to Army Soldiers for earning certain credentials related to 
their Military Occupational Specialty.
    Currently, Soldiers may receive funding support for credentialing 
exams and licensing fees for credentials related to their MOS. We are 
developing additional options to help Soldiers pay for self-directed 
credentialing training and education, and are requesting that DoD 
expand the use of Tuition Assistance for credentialing. Army 
anticipates piloting a self-directed credentialing Limited User Test 
(LUT), with a diverse list of select, high value credentials in at 
least one installation (to be determined). We will use the lessons 
learned from the LUT to develop operational and resource requirements 
for expanding self-directed credentialing across the Army enterprise. 
Based on the results of the pilot, we may come to Congress with a 
request for additional funding for an enterprise credentialing program. 
At this time we do not need additional help but we appreciate Congress' 
continuing interest in, and support of, education, training, and 
credentialing opportunities for Soldiers.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                          urban warfare school
    Question. The Modern War Institute at West Point recently released 
a series of reports on urban warfare. Many of them pointing towards 
demographic trends showing increased urbanization in countries where 
resources and infrastructure are scarce. Many of these cities are also 
located on the coast, and are vulnerable to hurricanes and other 
disasters . . . increasing the likelihood of violence and chaos in 
these urban areas where political and security vacuums may develop.
    While not desirable to fight in an urban area, we may not have a 
choice. I understand that some special operations training for urban 
warfare is carried out today in multiple locations in New Mexico such 
as White Sands and Melrose Range. White Sands is also notable because 
of its complete control of the electromagnetic spectrum enabling more 
comprehensive training. How is the Army training for urban environments 
and is the Army considering a dedicated urban warfare school that will 
include the ability to control the electromagnetic spectrum?
    Answer. Army units use our combat training centers, as well as 
Military Operations on Urban Terrain (MOUT) capabilities available at 
Fort Knox and Fort A.P. Hill, and other home-station training sites to 
conduct training for urban environments. Urban terrain is included in 
all Warfighter exercises.
    The urban environment will be addressed in the new version of Field 
Manual 3-0, Operations and is in Army Techniques Publication (ATP) 3-
06, Urban Warfare just published in March 2017. The Army is also 
developing a Dense Urban Terrain (DUT) Strategy and will evaluate our 
capabilities and needs when the strategy is complete. The Army is not 
currently considering a separate and distinct urban warfare center.
                        foreign affairs experts
    Question. One of the most noted failures of the Iraq occupation was 
the lack of subject matter and cultural experts. While I hope that 
there is no need for them in any future war, in your opinion does the 
Army have a strong pipeline of these type of foreign area experts that 
could be utilized in a contingency? And if not, what does the Army need 
to strengthen this pipeline?
    Answer. In my opinion, the Army has a strong pipeline of foreign 
area experts available for contingencies. The Army values foreign area 
expertise, with a forward presence in 139 countries and within all 
functional and geographic Combatant Commands. The Army Foreign Area 
Officer (FAO) program continues to be the Department of Defense (DoD) 
``gold-standard'' for the development and permanent utilization of 
officers who provide cultural, regional and language expertise. Since 
2003, the Army has increased manning by 20 percent and increased 
training for our FAOs. To sustain our investment, we have funded 
programs to enhance FAO language skills and realign officers to meet 
contingencies. Finally, the program continuously reviews policy and 
utilization to ensure the FAO Corps can support current and emerging 
National Security requirements.
                              air threats
    Question. A report from War on the Rocks stated that ``For decades, 
American air dominance has gone almost uncontested, and ground forces 
have all but forgotten they can be touched from above. But thanks to 
the proliferation of small, low-cost drones and desktop manufacturing, 
that paradigm is now changing--and quickly.'' The report also stated 
that ``the United States has a force that, at the fighting level, 
remains shockingly and dangerously unaware the threat even exists.'' Do 
you agree with this assessment and how is the Army working to prepare 
soldiers to counter and address this evolving threat?
    Answer. We are very aware of the threat posed by low-cost drones 
and are taking action against this threat. We have prioritized Army 
investment in Counter-Unmanned Aircraft Systems (C-UAS) solutions e.g., 
Maneuver Short Range Air Defense (M-SHORAD), Stinger with proximity 
fuze (Stinger-Prox), and Indirect Fire Protection Capability Increment 
2--Block I (IFPC Inc. 2-I)). Soldiers engaged in today's fight are 
implementing time tested tactics, techniques and procedures in 
``passive air defense'' while the Army is engaged in urgent fielding of 
emergent C-UAS equipment and determining which solutions warrant 
becoming a program of record.
          third offset and defense innovation unit experiment
    Question. Does the Army support an expansion of the Third Offset to 
include a DIUx (Defense Innovation Unit Experiment) office located near 
a national security lab and military research lab working on military 
solutions such as machine learning, directed energy, space, and other 
technological research? How would the Army benefit from such an 
expansion and how would the Army utilize a new DIUx office?
    Answer. The Army supports opportunities to partner with non-
traditional high-tech innovators and businesses that do not typically 
partner with the Department of Defense (DoD). The Army Research 
Laboratory has established a new concept called Open Campus, a 
collaborative endeavor with the goal of building a science and 
technology ecosystem with non-traditional partners that will encourage 
groundbreaking advances in basic and applied research areas of 
importance to the Army, to include machine learning, directed energy, 
manned-unmanned teaming, and artificial intelligence. Army scientists 
and engineers work side-by-side with collaborators both at Army 
facilities and at partner institutions around the United States. The 
Army is evolving the Open Campus initiative to establish a DoD presence 
in regions of the country with strong technology invention and 
innovation track records. Collating an Army laboratory or Open Campus 
site with a DIUx cell may accelerate proof of concept assessments, 
enable rapid refinement of prototypes, and integrate technology 
readiness concerns earlier in the innovation and adaptation cycle or 
result in other benefits. The Army utilizes DoD partners such as 
Defense Innovation Unit Experiment (DIUx) to foster identification of 
new collaboration opportunities and supports an opening for partnership 
opportunities within the technology sector.
                       afghanistan policy review
    Question. What is your role in the Afghanistan policy review? How 
many meetings have you or your staff had with the White House or with 
Secretary Mattis? Can you please summarize your proposal for the Army's 
participation in any future military activities in Afghanistan and how 
much the additional resources will cost?
    Answer. My role in the Afghanistan policy review, thus far, has 
been to provide best military advice to the CJCS and SecDef informed by 
my experience, judgment, and my visits to the AOR. The Army is ready to 
support the Combatant Command's request for force increase in 
Afghanistan. The Army will likely be asked to provide key enablers such 
as aviation, intelligence, medical, and explosive ordinance disposal 
assets, at a minimum, as part of the proposed Expeditionary Advising 
Packages. Since the actual forces and numbers, by Service, have not 
been finalized, we do not yet have an estimated cost for these 
additional Army resources.

                          SUBCOMMITTEE RECESS

    Senator Cochran. The Defense Subcommittee will reconvene on 
Wednesday, June 14, 2017, at 10:30 a.m. in the morning. We will 
receive testimony from the Secretary of Defense and Chairman of 
the Joint Chiefs of Staff.
    Until then, the subcommittee stands in recess.
    [Whereupon, at 11:50 a.m., Wednesday, June 7, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, June 14.]
</pre></body></html>
